<html>
<title> - HEALTH AND WEALTH INEQUALITY IN AMERICA: HOW COVID 19 MAKES CLEAR THE NEED FOR CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                    HEALTH AND WEALTH INEQUALITY IN
                      AMERICA: HOW COVID 19 MAKES
                       CLEAR THE NEED FOR CHANGE

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., JUNE 23, 2020

                               __________

                           Serial No. 116-27

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                            
                             ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
42-158                 WASHINGTON : 2020 
 
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
ROSA L. DELAURO, Connecticut         JASON SMITH, Missouri
LLOYD DOGGETT, Texas                 BILL FLORES, Texas
DAVID E. PRICE, North Carolina       GEORGE HOLDING, North Carolina
JANICE D. SCHAKOWSKY, Illinois       CHRIS STEWART, Utah
DANIEL T. KILDEE, Michigan           RALPH NORMAN, South Carolina
JIMMY PANETTA, California            KEVIN HERN, Oklahoma
JOSEPH D. MORELLE, New York          CHIP ROY, Texas
STEVEN HORSFORD, Nevada              DANIEL MEUSER, Pennsylvania
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            TIM BURCHETT, Tennessee
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee
RO KHANNA, California

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., June 23, 2020..................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     6
        Prepared statement of....................................     8
    Sir Angus Deaton, Ph.D., Senior Scholar, Princeton University 
      Woodrow Wilson School, Presidential Professor of Economics, 
      University of Southern California..........................    11
        Prepared statement of....................................    13
    Patrice Harris, M.D., M.A., Immediate Past President of The 
      American Medical Association...............................    19
        Prepared statement of....................................    21
    Damon Jones, Ph.D., Associate Professor, University of 
      Chicago Harris School......................................    30
        Prepared statement of....................................    32
    Avik Roy, President, Foundation for Research on Equal 
      Opportunity................................................    41
        Prepared statement of....................................    43
    Statements from America's Essential Hospitals and the 
      Campaign for Tobacco-Free Kids submitted for the record....    90
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   104
    Hon. Barbara Lee, Member, Committee on the Budget, questions 
      submitted for the record...................................   108
    Answers to questions submitted for the record................   109


                    HEALTH AND WEALTH INEQUALITY IN
                      AMERICA: HOW COVID-19 MAKES
                       CLEAR THE NEED FOR CHANGE

                              ----------                              


                         TUESDAY, JUNE 23, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:34 p.m., via 
Webex, Hon. John A. Yarmuth [Chairman of the Committee] 
presiding.
    Present: Representatives Yarmuth, Higgins, Boyle, DeLauro, 
Schakowsky, Kildee, Panetta, Morelle, Horsford, Scott, Jackson 
Lee, Peters; Womack, Woodall, Johnson, Flores, Holding, Norman, 
Meuser, Crenshaw, and Burchett.
    Chairman Yarmuth. This hearing will come to order.
    Good afternoon, and welcome to the Budget Committee's 
hearing on Health and Wealth Inequality in America: How COVID-
19 Makes Clear the Need for Change. I want to welcome our 
witnesses here today.
    At the outset, due to the new virtual hearing world that we 
are in, I ask unanimous consent that the Chair be authorized to 
declare a recess at any time to address technical difficulties 
that may arise with such remote proceedings.
    Without objection, so ordered.
    As a reminder, we are holding this hearing virtually, in 
compliance with the regulations for committee proceedings, 
pursuant to House Resolution 965.
    First, consistent with regulations, the Chair or staff 
designated by the Chair may mute participants' microphones when 
they are not under recognition for the purposes of eliminating 
inadvertent background noise. Members are responsible for 
unmuting themselves when they seek recognition, or when they 
are recognized for their five minutes.
    We are not permitted to unmute Members unless they 
explicitly request assistance. If I notice that you have not 
unmuted yourself, I will ask you if you would like staff to 
unmute you. If you indicate approval by nodding, staff will 
unmute your microphone. They will not unmute you under any 
other conditions.
    Second, Members must have their cameras on throughout this 
proceeding, and must be visible on screen in order to be 
recognized. As a reminder, Members may not participate in more 
than one committee proceeding simultaneously.
    Now I will introduce our witnesses. This afternoon we will 
be hearing from Professor Sir Angus Deaton, Senior Scholar at 
Princeton University Woodrow Wilson School, and Presidential 
Professor of Economics at the University of Southern 
California; Dr. Patrice Harris, Immediate Past President of the 
American Medical Association; Dr. Damon Jones, Associate 
Professor at the University of Chicago Harris School; and Mr. 
Avik Roy, President of the Foundation for Research on Equal 
Opportunity.
    I will now yield myself five minutes for an opening 
statement.
    The word ``unprecedented'' is often overused, but right 
now, what we are facing as a nation and a society is truly 
unprecedented. We are simultaneously battling a global pandemic 
as the coronavirus rages on, an economic freefall from business 
closures and waves of mass unemployment, and a crisis of 
conscience as we grapple with the deadly effects of entrenched 
systemic racism in our country.
    Nearly every American has experienced uncertainty and far 
too many extreme hardships during the last several months. But 
these crises have something else in common: they all 
disproportionately impact Americans of color.
    Today the Budget Committee will examine one aspect of this: 
the underlying health and economic inequalities that have 
exacerbated COVID-19's impact on our minority communities. 
Historic and persistent racial disparities in income, 
employment, education, wealth, health care, housing, and more 
have made Americans of color more vulnerable to the virus, both 
in terms of health and economic status.
    Nowhere is the disproportionate impact of coronavirus 
clearer than in the virus's death rates. If Black and Latino 
Americans died of COVID-19 at the same rate as white Americans, 
at least 14,400 Black Americans and 1,200 Latinos would still 
be alive today. While the CDC may not list structural racism as 
one of the chronic conditions putting people at a higher risk 
for severe COVID-19 disease, long-term health inequities and 
barriers to accessing quality, affordable health care have made 
communities of color more vulnerable to serious illness and 
death from coronavirus.
    Where you live, where you work, and how you get to work all 
influence health status and outcomes. And more often than not, 
it is to the detriment of Black and Latino families. These 
longstanding inequities are only hard to see if you refuse to 
look. And when it comes to economic justice, the facts are 
plentiful: in terms of median household earnings, the most 
recent Census data shows that, for every dollar a white family 
earns, a Latino family earns $.73, while a Black family earns 
just $.59.
    Decades of income inequality and the resulting wealth gap 
have left Black and Latino Americans with less savings and far 
less ability to weather a serious health emergency or an 
economic crisis. Today families are battling both. The same 
households that had less going into this economic crisis have 
faced far more layoffs and job loss. While all groups have seen 
a historic rise in unemployment compared to pre-pandemic 
levels, the May 2020 unemployment rates for Black and Latino 
Americans were substantially higher than for white Americans.
    The pandemic has redefined essential work. And while Black 
and Latino workers comprise--compose 29 percent of the national 
work force, they account for 34 percent of frontline workers. 
Every day they are forced to choose between their health and a 
paycheck. Despite this, many of these workers still do not have 
access to paid leave or hazard pay. And more than one in four 
frontline workers have said the coronavirus has made it harder 
to meet their basic needs.
    But workers aren't the only ones whose daily life has been 
upended. The coronavirus has led to widespread school closures 
across communities, and children of color may be impacted the 
most. One study estimated that, while the average white student 
may lose about six months of learning, the average Latino 
student may lose nine months, and the average Black student may 
lose 10 months. Without action, this could exacerbate 
graduation rates, disparities among students of color, further 
perpetuating economic inequality for generations to come.
    The COVID-19 pandemic has exposed the cracks in our systems 
and laid bare the underlying inequities that have existed in 
the United States for generations. And our health care system, 
our economy, in education, and in our justice systems. It 
threatens to widen the economic chasm between white Americans 
and Americans of color. If not contained and reversed, we will 
not only jeopardize the future of millions of American 
families, we risk the well-being of our nation.
    As we look forward to the next phase of recovery efforts, 
we must strive for structural change that will not only help 
our economy recover, but also help more people, specifically 
people of color, prosper when it does. We cannot be foolish 
enough to think that a rising tide will lift all boats. If we 
are, we will sink the country. This has to be a turning point. 
There is too much need, too much pain, and too much anger for 
Congress to do little or nothing.
    I know we cannot end institutional racism overnight, but we 
can certainly start. We can build a stronger nation, a more 
inclusive economy, and an America that better reflects our 
values. And that is what I hope to focus on today.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Yarmuth. I now yield five minutes to the Ranking 
Member, Mr. Womack, for his opening remarks.
    Mr. Womack. I thank the Chairman, and thanks to all of the 
Members of the Committee for participating today. It is great 
to be in this hearing.
    Prior to the coronavirus, the U.S. economy was increasing 
wages and living standards. The median average income, adjusted 
for inflation, increased by 3.4 percent in 2018. The poverty 
rate fell from 12.3 to 11.8 percent, according to the latest 
Census Bureau data. Unemployment was at a five-decade low of 
3.5 percent. Black, Hispanic, and Asian unemployment rates fell 
to 5.4, 3.9, and 2.1 percent, respectively, all of which were 
record lows. Wages were growing faster for low-income workers 
and for higher-income workers. But the pandemic, as we all 
know, brought these upward trends to a screeching halt.
    While I think the topic of today's hearing is extremely 
important, and one that we need to carefully discuss and 
address, I am concerned that this Committee ought to be focused 
on a large and growing crisis that threatens income security 
programs for all Americans. And that threat is our out-of-
control deficit and debt. Congress has--and, I might add, 
appropriately, and on a bipartisan basis--enacted $2.5 trillion 
worth of legislation to address our current public health and 
economic crisis.
    Even while we take such unprecedented action, we can no 
longer ignore our country's long-term fiscal imbalance. The 
nation's structural budget deficits, which exist not only in 
economic emergency, but also during peace and prosperity, are a 
severe challenge to the critical programs that millions of our 
seniors and low-income Americans rely on every day, like Social 
Security, Medicare, Medicaid--and that list goes on and on.
    The federal government's future ability to fund these 
programs is under a real threat by the growth of net interest 
payments, which are growing far more rapidly than the rest of 
the federal budget, even with historically low interest rates.
    Ultimately, if we fail to live up to our duty to 
responsibly budget, future generations may face a sovereign 
debt crisis that would not only threaten our ability to fund 
these programs that tens of millions of Americans rely on, but 
would also cause economic hardship for all Americans. And let 
me just add, too, that the pressure on the discretionary budget 
of the U.S. Congress is--speaks for itself in--with deficits 
and debt the way we are calculating them today.
    Since we failed to do our job during normal times and put 
the nation on a fiscally responsible path, we set ourselves up 
for an even more challenging budget outlook when the pandemic 
crisis hit. Now our deficit this year is projected to be under 
just under $4 trillion, by far the highest in American history.
    This Committee needs to get back to its job of writing a 
budget resolution for Congress and making the tough choices we 
have been tasked to do. It is not going to be easy. Indeed, it 
is going to be much more difficult with a pandemic. But it 
needs to be done. This is the only way these critical safety 
net programs, programs so vital to our most vulnerable 
communities, will continue to exist for current and future 
generations.
    The past few months have been extremely challenging for the 
entire country and, in fact, the entire world. In the United 
States, over 2 million cases of COVID-19 have ravaged the 
health of our nation,and our economy has been infected, as 
well. The economic downturn caused by the quarantine orders has 
significantly increased the impact of COVID-19 on our most 
vulnerable. Today, we will discuss how the pandemic has 
exacerbated pre-existing health care and economic inequalities 
in the nation.
    So I look forward to today's discussion. And, Mr. Chairman, 
again, I thank you for hosting the hearing today, and I look 
forward to it. And I yield back the balance of my time.
    [The prepared statement of Steve Womack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Yarmuth. I thank the Ranking Member. I would also 
again, once again, like to thank our witnesses for being here 
this afternoon.
    The Committee has received your written statements, and 
they will be made part of the formal hearing record. Each of 
you will have five minutes to give your oral remarks.
    As a reminder, please unmute your microphone before 
speaking.
    Dr. Angus Deaton, please unmute on your microphone. You may 
begin when you are ready. You are recognized for five minutes. 
Thank you for being here.

STATEMENT OF SIR ANGUS DEATON, PH.D., SENIOR SCHOLAR, PRINCETON 
  UNIVERSITY WOODROW WILSON SCHOOL, PRESIDENTIAL PROFESSOR OF 
 ECONOMICS, UNIVERSITY OF SOUTHERN CALIFORNIA; PATRICE HARRIS, 
 M.D., M.A., IMMEDIATE PAST PRESIDENT OF THE AMERICAN MEDICAL 
     ASSOCIATION; DAMON JONES, PH.D., ASSOCIATE PROFESSOR, 
 UNIVERSITY OF CHICAGO HARRIS SCHOOL; AND AVIK ROY, PRESIDENT, 
          FOUNDATION FOR RESEARCH ON EQUAL OPPORTUNITY

              STATEMENT OF SIR ANGUS DEATON, PH.D.

    Dr. Deaton. Chairman Yarmuth, Ranking Member Womack, and 
Committee Members, thank you for inviting me to talk on the 
inequalities in the COVID-19 pandemic.
    The pandemic is exposing and exaggerating longstanding 
inequalities in health and wealth. It will worsen the 
inequalities between Black and white, between the more and the 
less educated, and between ordinary people and the well-off. 
Enlightened policy can moderate these effects, as is already 
being the case, but we are not done.
    The pandemic may turn tolerable inequalities into 
intolerable inequalities. There is a danger of social unrest, 
but there are also opportunities to address all problems. The 
need to repair our policing has already become urgent. Other 
outstanding issues include health care, antitrust policy, and 
our system of unemployment benefits.
    In the past half century, the lives of Americans have 
become increasingly divided according to whether or not people 
have a four-year college degree. Those with a BA have prospered 
and are living longer, while those without are foundering. Not 
only are the gaps widening, but the lives of less educated 
Americans are getting worse. The American economy is not 
delivering for less educated Americans.
    In our book, ``Deaths of Despair and the Future of 
Capitalism,'' Anne Case and I document this disaster. Mortality 
rates have risen, driven by rapid increases in deaths of 
despair, suicides, overdoses, alcoholic liver disease, and an 
uptick in deaths from heart disease. At the same time, wages 
and employment have declined, as have marriages, socializing, 
and churchgoing. In all of these areas, more educated Americans 
continue to make progress.
    The disintegration of white working class life parallels 
the earlier disintegration among African-American communities 
in the 1960's and 1970's, culminating in the crack epidemic. 
African-American mortality rates have long been higher than 
those of whites. The gap has diminished steadily, closing 
particularly rapidly when white mortality rates began to rise 
in the mid-1990's. This convergence came to a halt after 2013, 
when fentanyl deaths among Blacks where Blacks with a BA were 
largely exempt.
    American health care played a role in the disaster. 
Pharmaceutical companies were largely responsible for the first 
wave of the opioid epidemic. The exorbitant cost of health 
care, much of which is financed through employment, has lowered 
wages and destroyed goods jobs for less educated Americans. At 
the same time, it is expanding wealth inequality.
    This was before the pandemic. COVID death rates are higher 
for African-Americans and Native Americans than for whites. 
Occupation, segregation, population density, transportation, 
and the patterns of pre-existing health conditions for all 
involved. High incarceration rates for African-Americans have 
brought excess mortality from COVID.
    Lives of the more educated are less at risk because many of 
us can work and earn while social distancing. Poorer kids are 
likely to do less well with Internet classes.
    The pandemic has exposed the folly of tying health 
insurance to work. African-Americans and Hispanics were less 
likely to have insurance pre-COVID, and they and the millions 
who became unemployed find themselves at risk. Temporary 
arrangements are covering COVID-related health care, but they 
are not sustainable. America needs what other rich countries 
have: health care that is not tied to employment, that covers 
everyone from birth, and that controls costs.
    Our patchwork, state-based system of unemployment benefit 
is also being exposed by the pandemic. Many have been concerned 
about consolidation and growing market power of large firms, 
prices rising faster in the U.S. than in Europe, and the 
falling share of labor and national income. COVID has shuttered 
many businesses, increased the power of big tech, and will 
cause further consolidation. Reinvigorating antitrust 
enforcement was a priority before, and will be urgent 
afterwards.
    The four largest states have a third of the population, but 
only 8 percent of the votes in the Senate. COVID victims are 
even less well represented: half of all deaths, and only 8 
percent of Senate votes, an inequality that will narrow as the 
epidemic moves into rural America. Unequal political 
representation in the pandemic serves further to divide us.
    Thank you.
    [The prepared statement of Angus Deaton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Yarmuth. Thank you, Dr. Deaton.
    I now recognize Dr. Harris for five minutes.
    Please unmute your mic, Dr. Harris.

            STATEMENT OF PATRICE HARRIS, M.D., M.A.

    Dr. Harris. Thank you. Good afternoon, Chairman Yarmuth, 
Ranking Member Womack, and Committee Members. The American 
Medical Association commends you for holding today's hearing. 
My name is Dr. Patrice Harris, and I am Immediate Past 
President of the AMA. I am a practicing child and adolescent 
psychiatrist from Atlanta. And thank you for the opportunity to 
testify today.
    As our nation confronts a dual crises of a deadly pandemic 
that has triggered economic instability and joblessness unseen 
since the Great Depression, inequities have been starkly 
revealed, most notably among Black Americans, the Latinx 
community, and Native American communities, and I would like to 
highlight just a few facts.
    Black Americans have been among the hardest hit population 
by this virus. Not only are we hospitalized and dying in 
disproportionate numbers, we also are more likely than white 
Americans to have lost income because of the pandemic. In 42 
states plus Washington, DC, Hispanics and the Latinx community 
make up a greater share of confirmed cases than the share of 
their population. In eight states, it is more than four times 
greater. The death rate in the Navajo Nation is higher than in 
any single U.S. state.
    So clearly, COVID-19 is having a disproportionate impact on 
minoritized and marginalized communities. And why? Structural 
inequities that result from long-term policies, practices, and 
procedures that determine access to comprehensive health care, 
as well as those determinants of health: inadequate housing, 
education, food insecurity.
    And these are all influenced by bias and racial 
discrimination; higher prevalence of chronic health conditions 
such as diabetes, hypertension, asthma, and obesity; an 
increased likelihood of working essential jobs such as bus 
drivers, train operators, those who are working in our 
supermarkets and meat packing plants, hospitals and nursing 
home--and, of course, that increases the risk of exposure; a 
stronger likelihood of living in congregate, multi-generational 
living arrangements; and major mistrusts of medical 
institutions because of historical abuses of science and 
research; and, of course, misinformation and disinformation.
    So the AMA is very concerned that the pandemic and the 
economic fallout will further exacerbate these longstanding and 
long-term health, economic, and social inequities experienced 
by minoritized and marginalized communities.
    Now, these dual crises are also having an impact on our 
collective mental health. The toll is not yet known, but I will 
tell you that people are angry, exhausted, and frustrated. And 
in nearly every community, people are demanding change.
    New data from the Household Pulse survey suggests that 
COVID-19 is worsening mental health for communities of color, 
which, as a group, have less access to mental health services. 
As a child and adolescent psychiatrist, I worry about the 
short-term and the long-term mental health impact this pandemic 
will have on our children, particularly our children of color.
    The AMA is deeply committed to achieving greater health 
equity by raising awareness about its importance to patients 
and communities, and by working to identify and eliminate 
inequities. The good news is we are talking about it. The 
public is more aware; we are having this conversation today. So 
we must use this opportunity to move our country forward on 
health equity through change at the individual level in our 
policies and procedures and in our culture.
    And how do we move forward? Briefly, some suggestions. We 
have to address implicit and unconscious bias at all levels and 
in all systems. We need targeted outreach on COVID-19 testing. 
We need to make sure that vaccine trials include a diverse 
population. We need federal and state agencies to collect and 
report COVID-19 data on infections. We need support for 
increasing diversity of the medical work force. We need a 
national strategy with state partnerships for increased 
resources for a mental health infrastructure that has, for 
decades, gone under-resourced and underfunded. And we need to 
expand access to health insurance and high-quality health care.
    We cannot go back to business as usual. We must work 
together to build a society that supports equitable 
opportunities for optimal health for all.
    Thank you.
    [The prepared statement of Patrice Harris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Yarmuth. Thank you, Dr. Harris.
    And I now recognize Dr. Jones for five minutes.
    Dr. Jones, thank you for joining us. Unmute your mic, 
please.

                STATEMENT OF DAMON JONES, PH.D.

    Dr. Jones. Thank you, Chairman Yarmuth and Ranking Member 
Womack, for having me. I am Damon Jones, an Economist and an 
Associate Professor at the University of Chicago Harris School 
of Public Policy. My research and teaching focus on inequality, 
tax policy, and household financial well-being. My comments 
today will focus on four aspects of inequality in the U.S. and 
how they interact with the current COVID-19 pandemic.
    I will begin with the well-documented decline in the 
individual and collective leverage of workers relative to their 
employers. Unionization rates have reached record lows, and 
recent research has highlighted market power by employers, 
which allows them to suppress worker pay. These developments 
have coincided with stagnant wages for the typical worker.
    It is in this context that we now find frontline workers in 
between a rock and a hard place. On the one hand, they have an 
opportunity to continue working when many others are forced 
into unemployment. On the other hand, they are being asked to 
risk exposure to COVID-19 infection. And the erosion in worker 
power I just mentioned leaves them unable to demand adequate 
protection equipment, paid sick leave, or hazard pay. To 
paraphrase Economist Rhonda Sharp, though these jobs are deemed 
essential, the workers who perform them are being treated as 
anything but.
    My second point will be quite brief. By linking one's 
insurance coverage to one's employment status, the U.S. is in 
the minority amongst peer OECD countries. The flaws of this 
system are made painfully clear as we undergo historically 
rapid spikes in unemployment, thrusting millions into the ranks 
of the uninsured. During both a public health crisis and a 
recession, many are dreading the potential of enduring long-
term unemployment and chronic health complications related to 
COVID-19 infection, all the while with limited access to health 
care.
    Next, let me turn to wealth inequality. Many households 
lack adequate liquid assets, which I define as cash on hand or 
assets that can be easily converted into cash. The typical 
household has less than one month of income saved up for a 
rainy day, meaning--leaving many in a state of financial 
precarity. In recent research, my colleagues and I have shown 
that, when faced with an unexpected cut in pay or a job loss, 
households with the least amount of assets have to cut spending 
on necessities by two to four times as much as their wealthier 
counterparts.
    During the current pandemic millions of families found 
themselves in this very position. While payments via the CARES 
Act and extensions to unemployment insurance have filled the 
gaps for many, there remain households who have experienced 
delays in receiving relief. And there are others, people 
experiencing homelessness and undocumented people, who are 
unlikely to receive payments or who are outright excluded from 
these benefits.
    I will end with the issue of racial inequality. In the 
above three instances, the patterns of inequality are strongly 
predicted by one's racial and ethnic identity. Black workers 
make up a disproportionate share of frontline workers and 
Latinx workers are over-represented in key frontline 
industries.
    Insurance coverage is lower for people of color, especially 
native families, relative to white ones. And the 
disproportionate increases in unemployment among these groups 
is likely to exacerbate this gap.
    The typical white household has between nine to 10 times as 
much wealth as their Black and Latinx counterparts. Our 
research shows that this racial wealth gap leads Black and 
Latinx households to have to cut spending significantly more 
than white ones when faced with a reduction in pay or job loss.
    Given the above discussion, I recommend the Committee 
consider the following policies.
    First, protect workers' right to engage in collective 
bargaining, strengthen and enforce existing U.S. labor 
standards. And during a pandemic, convene bodies with 
representation from both workers and employers to address 
ongoing concerns of workplace health and safety.
    Second, in the short run, expand Medicaid eligibility for 
those who have experienced job loss. In the longer run, 
transition to a system of universal health care provision and 
health insurance coverage.
    Third, continue extensions of the unemployment insurance 
program beyond their expiration at the end of July. Tie this 
continued renewal to macroeconomic indicators, and disperse 
additional periodic direct payments to households through the 
IRS. Provide resources to state and local governments to better 
reach individuals not covered by either of these previous two 
channels, and extend relief to undocumented families.
    Finally, the racial disparities I have summarized are 
driven by longstanding factors such as historical and 
structural racism. They, therefore, require more fundamental 
interventions. As an example, we should move forward with H.R. 
40 and establishing a committee to explore reparations for 
African-Americans. Such policies directly address racial 
inequality by moving toward what William Darity, Jr. and A. 
Kirsten Mullen described as acknowledgment, redress, and 
possible closure with respect to historic racial injustice.
    Thank you, and I look forward to your questions.
    [The prepared statement of Damon Jones follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Yarmuth. Thank you very much, Dr. Jones.
    And now I yield five minutes to Mr. Roy.
    Welcome to the Committee, Mr. Roy. Thanks for being with 
us.

                     STATEMENT OF AVIK ROY

    Mr. Roy. Thank you, Mr. Chairman, and also to Ranking 
Member Womack and Members of the Committee. Thanks for inviting 
me here today.
    The Foundation for Research on Equal Opportunity, or 
FREOPP, for short, is a nonpartisan think tank that focuses 
exclusively on ideas that can improve the lives of Americans on 
the bottom half of the economic ladder. I welcome the 
opportunity to discuss our work on how COVID-19 economic 
lockdowns have widened racial inequities in education, health, 
and the work force.
    My written statement contains a more detailed discussion of 
our findings. In my oral remarks I will focus on three topics. 
First, I will discuss how economic lockdowns imposed by states 
and localities have disproportionately harmed minority 
employment and minority owned businesses; second, I will touch 
on how economic lockdowns have further destabilized the fiscal 
sustainability of the United States; third, I will discuss how 
COVID-19 mortality by race and ethnicity, and how states' 
failure to protect nursing homes in particular has harmed 
vulnerable seniors of all races.
    As Mr. Womack noted, in late 2019 Black unemployment 
reached its lowest rate in history, 5.4 percent. Today the 
Black unemployment rate is 16.8 percent. The Hispanic 
unemployment rate was 3.9 percent in late 2019. Now it is at 
17.6 percent. In my written testimony I detail how disparities 
between white and non-white unemployment rates also reached 
their lowest levels in history prior to the pandemic. But the 
economic lockdowns have brought those disparities back to 
levels last seen a decade ago.
    Compared to whites and Asians, Blacks and Latinos are less 
likely to work in white collar occupations, where working from 
home is feasible. Instead, they are seeing their jobs and hours 
slashed. Hourly wage work is down 50 percent, on average, and 
even more in places with the most stringent lockdowns.
    But Black-owned businesses have also been hit far harder 
than white-owned businesses. It is estimated that Black-owned 
businesses have experienced losses of 41 percent between 
February and April, versus 32 percent for Hispanic-owned 
businesses, and 17 percent for white-owned businesses. Put 
simply, racial and ethnic disparities are worse when the 
economy is worse, and especially during the government-mandated 
shutdowns of the economy we are experiencing today.
    As you know, the CARES Act and related legislation has 
increased the federal deficit by trillions of dollars. Material 
increases in the federal debt further destabilize what is 
already a dangerous situation. If demand for U.S. Treasury 
bonds declines on account of decreased U.S. credit worthiness 
such that Congress must enact substantial austerity measures, 
it will be low-income Americans who bear the greatest burden. 
Higher taxes, resulting in shrinkage of the economy, will harm 
economically vulnerable Americans through rising unemployment.
    Second, reductions in federal spending will most harm those 
who most depend on that spending, such as Medicare and Medicaid 
beneficiaries. Hence, it is essential that Congress consider 
ways to pay for the recent COVID relief packages and also avoid 
further destabilizations of the federal budget.
    One rising concern is how COVID-19 is affecting different 
racial and ethnic populations. The latest data from CDC 
indicates that Blacks represent a greater share of COVID deaths 
than they do of the general population, even when adjusted for 
the fact that COVID is more prevalent in cities. Mortality 
rates are also higher, as has been noted by others, in Native 
American communities, especially in Arizona and New Mexico.
    What may be surprising is that whites are also dying of 
COVID at higher-than-predicted rates. On the other hand, 
Hispanics and Asians represent a lower share of COVID deaths 
than would be implied by their geographically adjusted share of 
the U.S. population.
    The likely reason for these differences is that morbidity 
and mortality from COVID-19 is most common among the elderly. 
Eighty-one percent of all COVID deaths in the U.S. have 
occurred in people aged 65 or older, and whites are the oldest 
racial group in the U.S., with a median age of 44. Asians have 
a median age of 37; Blacks, 34; Hispanics, 30. Hence, we should 
expect to see higher fatality rates in whites versus Asians and 
Hispanics, due to their age. And we do. On the other hand, 
African-Americans are also relatively young, but we are still 
seeing higher mortality among Blacks.
    Some of you are familiar with our research on the tragedy 
taking place in our nursing homes and assisted living 
facilities: 0.6 percent of Americans live in long-term care 
facilities. And yet, within this 0.6 percent of the population 
lies 43 percent of all deaths from the novel coronavirus, 43 
percent. As you know, nursing homes are residential facilities 
for medically vulnerable seniors who have challenges with 
activities of daily living, such as taking a shower or getting 
dressed. Nursing homes are disproportionately poor, non-white, 
and enrolled in Medicaid.
    The nursing home tragedy has a bronze lining, if you will, 
because it means that the risk of death from COVID for the rest 
of the population is considerably lower than we may have 
thought. We can use that information to reopen the economy and 
reduce the harm we are imposing on hundreds of millions of 
Americans of all colors.
    Thank you.
    [The prepared statement of Avik Roy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Yarmuth. Thank you for your testimony, Mr. Roy.
    Thanks once again to all the witnesses for their testimony. 
And we will begin our question-and-answer period right now.
    As a reminder, Members can submit written questions to be 
answered later in writing. Those questions and the witnesses' 
answers will be made part of the formal hearing record. Any 
Members who wish to submit questions for the record may do so 
by sending them to the clerk electronically within seven days.
    As is our custom, the Ranking Member and I will defer our 
questions until the end. So I now recognize the gentleman from 
New York, Mr. Higgins, for five minutes.
    [Pause.]
    Chairman Yarmuth. Please unmute.
    Would you like the staff to unmute you? Please nod.
    Mr. Higgins.
    [Nodded.]
    Thanks, I think you are good to go.
    Mr. Higgins. All right, thank you very much, Mr. Chairman, 
and thank you, panel.
    Just a couple of thoughts here, first and foremost, and 
that is that 120,000 Americans are dead, and we have a 
government lockdown of the American economy because federal 
government failed to protect the American people.
    We have a highly infectious, contagious disease that 
attacks the lung, the liver, and the heart. And the best thing 
that our fragile health care system can do for people suffering 
through the symptoms of COVID-19 is to provide them with 
Tylenol to help break their fever and to help them with their 
pain. The United States is the richest country in the world. We 
pay more for health care than any other country, and we have no 
treatment and we have no vaccine.
    Dr. Harris, I think this is an appalling set of 
circumstances for our country. And what has been done to the 
African-American community with the higher than--the percentage 
of their population, cases of COVID-19, whether it is in 
Buffalo or any other city in this country, is very revealing, 
and exposes the acute fragility of the American system.
    Now, I have heard Dr. Fauci, who probably is the most 
credible public health official, say that he is optimistic 
about the possibility of a vaccine at the end of this year. 
That is about eight months from when we discovered this. From 
what I can tell, the quickest development of a vaccine was by 
Merck in response to Ebola, which was five years.
    Do you, as a medical professional, the formal head--the 
former head of the American Medical Association, share my 
concerns that what Dr. Fauci is saying and what people hear are 
two different things?
    I am concerned when he advances that optimistic view, 
perhaps overly, of having a vaccine by the end this year, what 
people hear is that they can become complacent about the things 
that we are doing now, social-physical distancing, face masks, 
and personal hygiene. I would like to get your thoughts on 
that.
    [Pause.]
    Chairman Yarmuth. Please unmute, Dr. Harris. There.
    Dr. Harris. Yes, yes, sorry about that.
    Thank you, Congressman. And let me first say that, of 
course, Dr. Fauci is the foremost expert on infectious diseases 
in our country.
    And look, I want to parse a little bit what I hear Dr. 
Fauci saying, as well. And I do think that there is certainly 
nothing wrong with being optimistic. But when Dr. Fauci--and 
you are right, that an end-of-year timeframe is optimistic and 
ambitious. But certainly when you have an all-hands-on-deck 
approach, I know it is possible.
    But I also hear Dr. Fauci saying that a vaccine could 
perhaps be developed by the end of the year. And I think what 
this body knows is that is just the first step, is development. 
Then you have to manufacture. Then you have to distribute. And 
you have to, of course, make sure that the vaccine is 
ultimately equitably distributed.
    So certainly, Dr. Fauci is--has information that I don't 
have, and certainly I would follow his lead when it comes to 
his timeline. But I also know that it will be important not 
just to develop the vaccine, but also get it distributed. And 
we have to make sure that there is a diverse population who is 
included in the clinical trials.
    Mr. Higgins. OK. Thank you. And just a final thought. It is 
like a tale of two countries.
    I represent Buffalo on the Canadian border. And the United 
States' federal response to coronavirus, COVID-19 was late, 
sloppy, and adversarial. The Canadian Federal response was 
early, strong, and united. I am trying to help get the U.S.-
Canadian border opened up, and, you know, we have been 
unsuccessful. I am doing this with Elise Stefanik, who is my 
co-chair on the Northern Border Caucus.
    Here is why. The entire province of Ontario that includes 
Toronto, has 250 cases of COVID-19 for every 100,000 
population. New York City has 2,576 cases for every 100 (sic) 
population, 10 times more. The reason we can't get the border 
open is because the Canadians in Ontario don't want Americans 
over there, because, given our high numbers, we are super-
spreaders. And again, I just think that underscores--I love 
optimism, but I want reality, as well. And unless and until we 
develop an effective treatment in vaccine, there is no 
normalcy, not in terms of our health care, and not in terms of 
our economy.
    With that, I will yield back, Mr. Chairman.
    Chairman Yarmuth. I thank you. The gentleman's time has 
expired. I now recognize the gentleman from Georgia, Mr. 
Woodall, for five minutes.
    Please unmute.
    Sorry, hold on. I think Rob dropped out. I now recognize 
the gentleman from Ohio, Mr. Johnson, for five minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman. I appreciate 
your holding this hearing--and Ranking Member Womack. I think 
it is an important hearing.
    You know, over the past few months we have seen the 
devastating impacts of the COVID-19 pandemic on our 
communities, and we have also seen the positive power of 
deregulation when it comes to removing barriers to health care 
and stimulating our economy.
    And as we continue the long road to recovery, we must 
recognize the importance of deregulation and the need to 
continue removing unnecessary regulations that may inhibit 
economic recovery.
    I know in my district we are already seeing the benefits of 
deregulation, especially when it comes to reducing barriers to 
telehealth access. The deregulation of telehealth during the 
COVID-19 pandemic has not only improved access to health care 
for my constituents in eastern and southeastern Ohio, but it 
also provided invaluable care for those in under-served rural 
areas across the nation. Deregulation has helped change the way 
health care is delivered. We saw it play out over the past few 
months.
    It is my hope that Congress will embrace more regulatory 
flexibility that will ultimately help in our economic recovery, 
and lead to greater access to quality, affordable health care.
    So there is no question that this crisis has exposed the 
need for more health care reform. But the solution is certainly 
not to expand the Affordable Care Act, which has resulted in 
fewer choices and higher health care costs. The American people 
deserve better than a continuation of the ACA's broken 
promises, most notably the broken promise that it would reduce 
insurance costs, the broken promise that it would improve 
access, and the broken promise that it would increase patient 
choice.
    Future health care reform must be patient-centered. 
Americans need more choices when it comes to health care. And 
Congress should do everything in its power to prioritize a 
patient-centered, consumer-controlled health care system, 
rather than an inefficient, expensive government-run health 
care system. The American people deserve patient-centered, 
market-based reforms that will strengthen the patient-doctor 
relationship, and give patients the ability to choose how best 
to meet their health care needs.
    And I look forward to working with my colleagues on these 
important issues as Congress takes additional steps to mitigate 
the impacts of the COVID-19 pandemic.
    So, Dr. Roy, prior to the COVID-19 pandemic, the federal 
budget was unsustainable, with the debt rising uncontrollably. 
In your opinion, what effect does the rising federal debt have 
on low-income Americans?
    Mr. Roy. Well, as I mentioned in both my written and oral 
remarks, Mr. Johnson, I am very concerned that both the 
spending of the CARES Act and related legislation and also the 
declining tax revenue from the economic lockdowns creates a 
perfect storm, which is going to massively increase the 
deficit. And then that is going to push forward--meaning closer 
in time to us today--the fiscal reckoning that is sure to come 
with runaway federal debts.
    We are almost already at the point in which the interest on 
the federal debt exceeds what we pay for national defense. And 
when we get to a point where we have to cut back spending on 
Medicare and Medicaid because our bondholders leave us no 
choice, who is going to be most harmed? It is the people who 
most depend on those programs. Those who have high incomes, who 
can afford private insurance will be fine. It is those that 
can't who will be most harmed.
    Mr. Johnson. Yes, I agree. You know, continuing with you, 
Dr. Roy, according to your research, what have been the public 
health impacts of the lockdowns and the extended lockdowns on 
low-income and minority communities?
    Mr. Roy. Well, that is an excellent question and one that 
doesn't get asked enough, Mr. Johnson. And what I would say is 
that it is going to take us years to really know what the 
effects are. But what we can certainly expect is that there are 
going to be people who didn't get their mammogram or their 
prostate exam during the lockdown. And as a result, when their 
cancer does get diagnosed, it is too late to do something about 
it.
    There are going to be people who had a heart attack, but 
that heart attack went untreated. But we know that because the 
number of people who have gone into hospitals reporting heart 
attacks has declined precipitously during the lockdown. I could 
go on and on. But there are many, many different areas of 
public health where we ought to be concerned.
    And then there is just the overall effects of massive 
unemployment for a prolonged period of time, and the effect 
that has on life expectancy and other public health measures.
    Mr. Johnson. Yes, OK. Well, I have other questions. I will 
submit those for the record, Mr. Chairman, but thanks and I 
yield back my time.
    Chairman Yarmuth. Absolutely. The gentleman's time has 
expired. I now recognize the gentlelady from Connecticut, Ms. 
DeLauro, for five minutes.
    Ms. DeLauro. Can you hear me?
    Wonderful. Oh, my gosh. I have become a technological 
genius in all of this. Thank you so much. Thank you so much, 
Mr. Chairman, Mr. Womack, for this hearing, and to our 
panelists.
    Dr. Deaton, I wanted to ask you, along with my colleague, 
Suzan DelBene, and Senators Michael Bennet and Sherrod Brown, I 
have introduced the American Family Act that would take our 
Child Tax Credit and essentially turn it into a child allowance 
by extending full eligibility to one-third of all children and 
families who earn too little to get the full credit. It 
increases its value and it delivers it monthly.
    The Child Tax Credit is our nation's largest expenditure on 
children, and the recent data shows that the American Family 
Act would cut child poverty, that rate, by about two-fifths; 
the Black child poverty rate in one-half; and the Hispanic 
child poverty rate by 41 percent. What we do in the House-
passed Heroes Act, it contains a one-year version of this 
policy that would provide $300 a month for young children and 
$250 for older children. In essence, the credit is fully 
refundable, you get $3,600 for young children under 6, $3,000 
for older children ages six to 17. It is monthly installments 
indexed to inflation.
    My question is, you have spoken about the importance of 
family allowances when you were a young father. Help us--and 
can you please talk, I guess, what it meant to you, what it 
might mean for families and for children in the United States 
in the short term and in the longer term, as we look to deal 
with the issue of inequality, of poverty, and those whom are 
essentially the most affected about this today?
    Dr. Deaton. Thank you. Thank you very much. I would tend to 
defer to some of my colleagues on child poverty in the United 
States, but I know it is a huge problem.
    Ms. DeLauro. It is.
    Dr. Deaton. And a great scandal. And it really is 
important, not just for the suffering it engenders now, but the 
suffering it engenders in the future. There is really good 
evidence that children who grow up in poverty tend to suffer 
throughout their lives as a consequence.
    You asked me of my own experience. I grew up in Britain, 
and I was a young widower when I was 29, and the child 
allowances that were paid to my two kids made the real 
difference for me between being able to go on and having enough 
money to put food on the table and look after my kids.
    I think it is not just children, but, I mean, I think one 
of the things that Anne Case and I talk about in our book is 
that the social safety net in America, compared with what has 
happened in Europe, is very frayed in many, many places. And, 
you know, people on the other side--and I, too--would say, 
well, you know, how are you going to finance that?
    And I think it is long past time for Americans to think 
seriously about a value added tax, which they have in Europe. 
It is a tax that people don't mind paying very much. It also 
generates a lot of revenue. It is somewhat regressive in who 
pays it, because everybody pays it. But the net effect, when it 
goes to things like child credits, and child tax credits, and 
so on, and child benefits, is that it is extremely progressive.
    It also means that, when you have something horrible happen 
like this happened here, that kicks into place immediately in a 
way that it just doesn't in this country at all, so that we 
have a sort of automatic set of responses to bad times when we 
come. So I am very much in favor of that sort of expansion, and 
in using a value added tax to try to pay for it.
    Ms. DeLauro. I would--just would say with the just 
remaining few seconds that I have, Dr. Deaton, I think we are 
looking probably--it is unlikely that we are going to deal with 
a value added tax. But I believe that what we can do is to look 
at--and the child poverty rates, and to take a look at how a 
child tax credit, where we have got one-third of kids today, 
mostly African-American kids and Latino kids, who are not 
eligible because their families make too little, but to try to 
do something that we might in a positive way move forward on, 
because it is already in existence and we are just adding it--
to it.
    Thank you so much, and thanks to all of you for your 
testimony.
    I yield back.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
recognize the gentleman from North Carolina, Mr. Holding, for 
five minutes.
    Mr. Holding. Thank you----
    Chairman Yarmuth. Please unmute.
    Mr. Holding [continuing]. very much, Mr. Chairman. I 
appreciate that.
    As pointed out, this virus and the statewide closures we 
used to contain it have highlighted several inequities in 
access to child care and nutrition services. And not only are 
minority children more likely to depend on school food 
programs, but they are also more likely to have parents who 
work in the services industry, and are unable to stay at home 
when schools close.
    And as we have seen, disparities in nutrition access are 
not just short-term problems. Over time they lead to higher 
rates of comorbidities and chronic conditions that make 
minority communities especially vulnerable to viruses like the 
COVID-19.
    From the beginning of this crisis, non-profits like the 
YMCAs in Raleigh and Charlotte have stepped up to address the 
nutrition and child care gap and support under-represented 
communities in their time of need. And over the past few weeks, 
the YMCA of the Triangle has served almost 50,000 meals to 
families across the region, and provided child care programs to 
over 1,700 health care workers. In Garner, North Carolina, in 
my district, the Poole Family YMCA has set up day camps for 
children, and runs blood drives to assist the health care 
community. These assistance programs played an essential role 
in providing stability to minority communities that have been 
disproportionately affected by this national emergency.
    But despite the tremendous work that the YMCAs have done 
throughout the country, they have been left out of the federal 
assistance programs they desperately need. Under the Paycheck 
Protection Program, which Congress enacted specifically to help 
groups like this, affiliated organizations like the YMCA of 
Charlotte and the YMCA of the Triangle cannot access funds if 
they collectively employ over 500 people. And, as a result, 
these two YMCAs have furloughed over 95 percent of their 
staffs, and continue operating at a loss.
    So, without immediate federal assistance, YMCAs across the 
U.S. will no longer be able to provide these invaluable 
community services. I am strongly urging all of my colleagues 
to support an adjustment in our next round of the Paycheck 
Protection Program to ensure non-profits like the YMCA continue 
to serve those in need.
    So my question to you, Dr. Roy, can you speak to the 
potential long-term effects of irregular access to food and 
child care in low-income communities, and how the federal 
government can best work with the private sector and non-
profits to bridge that gap?
    Mr. Roy. Well, this is--there is a lot of things to say 
about this topic. Let me highlight one thing that I mentioned 
in my written testimony, sir, which is that the closure of 
schools is a big disruptor in the delivery of nutrition to low-
income children because so many low-income children get their 
lunch through the federal school lunch program.
    So this is a way the school closures interact with a lot of 
federal assistance which flows through public schools, and 
why--one of the reasons why it is important to reopen schools 
where it is prudently possible to do so. And we at FREOPP are 
putting out a plan very soon on how you can reopen schools in a 
way that is consistent with public health.
    Mr. Holding. Excellent. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentlelady from Illinois, Ms. Schakowsky, for 
five minutes.
    Please unmute.
    Ms. Schakowsky. Here I am. Thank you very much, Mr. 
Chairman.
    And when I look at the name of this hearing, ``Health and 
Wealth Inequities in America: How COVID-19 Makes Clear the Need 
for Change,'' this could not be a more important moment to have 
this--the discussion. We have seen so many--and you listed some 
of them--inequities that have really come to light because of 
this.
    I want to talk about one of the things that I worry about. 
Thirty-four million Americans know someone who has died from 
not being able to afford their prescription drugs. But while 10 
percent of white Americans know someone who has died because of 
that, 20 percent, twice as many of non-white Americans, know 
someone who has died from being unable to afford treatment.
    Similarly, people of color are twice as likely as white 
Americans to consider high drug prices to be among our most 
pressing issue today. This was even before--you know, well 
before we had COVID-19 this was the problem.
    And yesterday, Representative Doggett and Representatives 
DeLauro and DeFazio, and Representative Rooney--bipartisan--and 
I introduced what we call the MAP Act, H.R. 7296, and H.R. 
7288, which is called the TRACK Act, to prevent price gouging 
at this time of the COVID-19 virus, and prohibiting monopolies 
that no one company can control the remedies for the vaccines, 
and to ensure transparency on taxpayer-funded COVID-19 drugs.
    So Dr. Harris and Dr. Jones, I wonder if you could discuss 
why people of color, and Black Americans in particular, may be 
severely or even fatally impacted by high drug prices, and if 
this is something that you see in your practices, in your 
lives.
    Dr. Harris. Am I unmuted? Can you hear me?
    Ms. Schakowsky. Yes.
    Dr. Harris. Thank you. This is absolutely a critical issue, 
and that is why everyone needs to have access to affordable, 
meaningful health coverage. And that does include the ability 
to get help to pay for prescription medications.
    You ask about my own experience, and I have, over the 
course of my career--for those who had insurance, I spent a 
great deal of my career working with children in the foster 
care system, or adults in the substance--with substance use 
disorders who relied on Medicaid or our state mental health 
system to pay for their services. And if they were able to 
access that, they were often not able to access the medications 
that I wanted to prescribe.
    And so, as we move forward on making sure that everyone has 
access to affordable, meaningful coverage, of course, the 
affordability of prescription drugs has to be a part of that 
equation.
    Ms. Schakowsky. Thank you. So you wrote prescriptions 
sometimes that weren't filled, probably, right?
    Dr. Harris. Yes. That is a significant problem.
    Ms. Schakowsky. Yes. Dr. Harris, did you want--I mean, Dr. 
Jones, did you want to respond?
    Dr. Jones. Yes. Well, I would just add briefly that, you 
know, another dynamic is that Black people in the United States 
and other people of color are less likely to have health 
insurance coverage. And so that is definitely going to 
introduce an additional barrier.
    And in terms of prescription drug prices, I think another 
thing to look at is how to make things more competitive. So how 
quickly can generic drugs be provided that can help to bring 
down the price of those prescription drugs, once they are made 
available?
    Ms. Schakowsky. Thank you. You know, we are working on--we 
have introduced legislation that would stop price gouging 
during this pandemic, because the pharmaceutical companies are 
prone to try and take advantage of a situation, but also to 
guarantee that any therapy or any vaccine that is discovered is 
affordable--and sometimes that may mean free--so that all 
Americans have access to that. I think we have to all accept 
that challenge, and make sure all people will have access to 
the vaccines and therapies.
    So thank you very much. I yield back.
    Chairman Yarmuth. The gentlewoman yields back. I now 
recognize the gentleman from Pennsylvania, Mr. Meuser, for five 
minutes.
    Mr. Meuser. Thank you, Mr. Chairman. Thank you all to the 
witnesses, I appreciate it. It is an important hearing.
    Our economy was in a good place, a very good place, up 
until February of this past year. It had many benefits to the 
vast majority of Americans.
    Mr. Roy, let me ask you--the economy, the data from where 
we were come--the beginning of 2020.
    The wage increases, levels of unemployment for all segments 
of the economy, for low income, for minorities, for rural 
areas, or for our cities always can be better. But would you 
say that we had some pretty positive trends that were 
beneficial to solving various inequalities that may have 
existed before?
    Mr. Roy. There is no doubt, Mr. Meuser. And as I mentioned 
in my opening remarks and also in my written testimony, where I 
go into this in a lot of detail, the disparity between white 
and Black unemployment, the disparity between white and 
Hispanic unemployment reached record lows in late 2019. So we 
had made remarkable progress in reducing some of these 
disparities. And obviously, the economic lockdowns have 
reversed a lot of those gains. And so the sooner we can get out 
of lockdown, get the economy back going again, maybe we can get 
back on that plane.
    Mr. Meuser. Yes. And, you know, I am a Republican, but I am 
always interested in a better plan. This might be a difficult 
question, but are you hearing anything so far in this hearing 
on health and wealth inequities that you think would be a--
pursuable for solving the inequity issue?
    Mr. Roy. Well, the most important thing we can do to reduce 
inequities is drive economic growth. That is both in terms of 
reopening the economy and in general. Pro-growth policies--a 
rising tide does lift all boats. That is what we have seen 
throughout the last several decades of the American economic 
experience. The better and stronger our economy is, the better 
it is, particularly for economically vulnerable populations. So 
I would highlight that, in particular.
    Mr. Meuser. There was a $3.3 trillion Heroes Act proposed 
exclusively by the House Democratic Caucus. No input from 
Republicans, whatsoever. Was there anything in that that would 
help this, these levels of inequality for health and wealth?
    Would you see election law changes as something that is 
dealing with this crisis?
    Do you think allowing state and local taxes being able to 
be deducted for over $10,000 is something important for--to 
create better equality within the society, particularly now, as 
we are recovering from this crisis?
    Mr. Roy. Well, I can't say that I have read the Heroes Act 
line by line, so you will have to forgive me for that. But I am 
aware of several provisions that I have looked at more closely.
    One that I am concerned about is a provision that would 
basically be a lottery for the trial lawyers to sue on behalf 
of anyone who was somehow connected, no matter how tenuously, 
to COVID-19, to sue their employer, sue the federal government, 
effectively, get some sort of federal slush fund relief for 
injuries that may or may not be related to COVID-19. I was very 
concerned about that.
    And I am also concerned about the restoration of tax breaks 
for high-income individuals living in states with high state 
and local taxes. I don't understand why that is good policy.
    Mr. Meuser. Yes, neither do I. You are not alone.
    Would you think that we can help solve this problem by 
opening up our schools come September?
    Mr. Roy. I think that is very important. And, I mean, we 
would argue, actually, at FREOPP--and we have put out some work 
on this, and we are going to put out more--we argue that, 
actually, the school year should start earlier than September 
to make up for lost time. It is essential for low-income 
parents and families to be able to get their kids back in 
school because the disparities in educational outcomes, let 
alone economic and public health outcomes that come from poor 
educational attainment, are incredibly important.
    And the good news is children are not vectors of infection. 
At least we have a lot of evidence that they are not very 
infectious. We don't understand exactly why. There are 
theories.
    Mr. Meuser. Right.
    Mr. Roy. But there is good reason to believe that reopening 
schools is the most--the safest thing we can do among all the 
re-opening tools we have.
    Mr. Meuser. That is why liability coverage that the schools 
talk about is essential for their opening.
    Mr. Roy. Yes, and for all employers. I think liability 
coverage protection, that is the most important thing Congress 
can do. A lot of reopening decisions are at the state and local 
level, but Congress can take action on liability protection.
    Mr. Meuser. I agree. Thank you, Chairman. I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from Michigan, Mr. Kildee, for five 
minutes?
    Mr. Kildee. Well, first of all, thank you, Chairman 
Yarmuth, for hosting this very important hearing.
    As you know, I am from Flint, Michigan. The residents of my 
home town are dealing with back-to-back crises, the ongoing 
water crisis and now the coronavirus pandemic. Both of these 
crises have disproportionately impacted people of color.
    Michigan currently ranks ninth among the states with the 
most coronavirus cases in the country. Genesee County, where my 
hometown of Flint is located, where I am right now, has had 258 
COVID-19 fatalities. In Genesee County African-Americans 
account for 47 percent of the fatalities, despite making up 20 
percent of the county's population. This kind of disparity is 
heartbreaking.
    We are also experiencing the loss of social interactions, 
those interactions that help us cope with--during times of 
stress. We are also seeing record levels of unemployment, 
causing many to wonder how they will pay their own bills, 
maintain access to health care, and feed their families.
    And on top of this, of course, people in Flint don't have 
access to water that they trust or that is affordable, many 
having to leave home just to get bottled water.
    Because of these compounding stressors and traumas, I am 
concerned that there may be an additional crisis on the 
horizon, a mental health crisis that disproportionately impacts 
our already hard-hit communities.
    The House-passed Heroes Act, which contained policies to 
help address inequities like creating an ACA special enrollment 
period for uninsured Americans, and also increased Federal 
Medicaid payments, and $3 billion to support mental health 
during this challenging time, that was what was included in the 
Heroes Act.
    I have also introduced legislation--again, which was 
included in the Heroes Act--that would extend unemployment 
benefits to help millions of Americans who are out of work.
    With that as a background, Dr. Harris, I wonder if you 
might comment on why a special enrollment period and increased 
access to health coverage is so important to address the 
resulting racial inequalities, particularly mental health 
impacts of COVID-19, and what other health care policies are 
important for Congress to consider as we go forward.
    Dr. Harris. Well, thank you, and I will make a couple of 
quick points.
    But we know that people without health insurance will live 
sicker and die younger. We also know that Medicaid expansion, 
and the expansion through the Affordable Care Act marketplace, 
has allowed so many individuals who would not have been able to 
access mental health services to do so. And certainly, it is 
important to have this coverage so that you can get this 
coverage.
    You also mentioned issues around the water in Flint, and we 
know that environmental toxins are another determinant of 
health. And we have to make sure that we look at those issues.
    And I want to make one more point about language that we 
use. And one of the reasons that we use ``inequities'' is 
because we want to talk about avoidable differences, those 
differences that can be prevented. And, of course, we have 
mentioned those structural determinants of health, as well, 
that have driven us to these social determinants of this ill 
health.
    So--and I remember, as a child psychiatrist in training, we 
used to always check for lead, because so many--I have trained 
in Atlanta at Emory, a large African-American population--and 
so many children have been exposed to lead. This is several 
years ago, but now--because of where they lived.
    And so, all of these issues are critical if we are to 
address these health inequities. And clearly, the ability to 
have insurance is one.
    You mentioned expanding the enrollment period for Medicaid, 
special open enrollments, the Affordable Care Act. We could 
also help folks retain their COBRA benefits. We could also 
support employers to offer temporary subsidies to preserve 
their health benefits. So those are just a few solutions that 
we would offer.
    Mr. Kildee. I really appreciate your comments. My initial 
career was in the child welfare system, working with children 
who had been traumatized. And I have a particular concern, 
particularly for the kids of Flint, who are experiencing a 
trauma on top of a trauma, not to mention the daily trauma that 
they see because of their conditions. So I really appreciate 
the perspective that you bring to this conversation.
    And thank you so much to all of you for your testimony.
    With that, Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from Texas, Mr. Crenshaw, for five 
minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I will, of course, say again--will state 
the obvious, and it has been said many times throughout this 
hearing--that economic lockdowns, in essence, choosing the 
costliest, most extreme possible option before we went through 
a series of other options to mitigate the spread of the virus 
and save our hospital system, that overwhelmingly hurt working-
class people.
    And while a bunch of city-dwelling, teleworking--I am sure 
very nice--people advocated for safety, and saving lives, and 
continuing to lock down the economy because, God forbid, 
anybody chooses themselves to go out to a restaurant, or 
chooses themselves to go to work, God forbid, that hurt the 
people that we are talking about today, overwhelmingly. And 
yes, they are hurt by COVID-19 as well, disproportionately, as 
all the data points to.
    Of course, the data, of course, it doesn't even come close 
to our elderly population. And I hope we do have a hearing 
about that, too, and question why Governors such as the 
Governor of New York could actually implement policy which 
harmed the elderly population the most by forcing infected 
patients back into nursing homes. That has been conveniently 
ignored.
    Because we should always be looking for specific policies 
that actually help the disparity that we are talking about, 
things we can actually affect. And I have heard a lot of 
talking out of both sides of the mouth in much of this. On the 
one hand, the economic devastation of lockdowns harms 
minorities' communities. It does.
    I just interviewed a Black-owned business owner of--a Black 
business owner here. And their main problem right now is that 
they can't get their workers to come back. Why? Well, because 
their workers are getting paid more on unemployment than they 
were back at work.
    I can't get a single Democrat to cosponsor a bill that 
would do a simple fix for that. Not take away benefits, 
actually, let them keep the bonus while the program is still 
going, keep that $600-a-week bonus, even if you come back to 
work. It seems like a win-win. I can't get a single Democrat on 
it. I don't know why, because I don't think there is any actual 
desire to solve problems here, and that is really frustrating 
if we actually care about really helping people we want to 
help.
    Mr. Roy, is there any data comparing minority incomes 
between states that are still in lockdown or came out of 
lockdown later and those that came out of lockdown earlier?
    Mr. Roy. Mr. Crenshaw, there is preliminary information on 
that score. What we do see is that, for example, as I was 
citing in my written testimony, the stuff around how minimum 
wage or--hourly wage jobs excuse me--hourly wage jobs have been 
cut significantly, there is significant state variation. In the 
states that have reopened, hourly wage jobs are coming back at 
much higher rates. And in states that have continued to lock 
down--the New Yorks, the Virginias--the hourly wage reduction 
in employment and in hours and wages is massively lower.
    Mr. Crenshaw. So I have heard over and over again that the 
only reason that--and the only solution, I mean, that we could 
possibly have to solving the disparities in health outcomes 
with something like COVID-19 is a single-payer health care 
system. It has got to be the only solution, right?
    But do countries with a single-payer health care system 
such as England, have health outcome inequalities, as well? I 
have heard they are almost exactly the same as here.
    Mr. Roy. Well, it is interesting that you mention this, Mr. 
Crenshaw, because just today at FREOPP we published a ranking 
of the 31 wealthiest countries in the world on the basis of 
their pandemic response: mortality per million residents; the 
economic stringency of their lockdowns; and the relative 
isolation of their economies relative to other countries.
    And what we found is, just as you said, there are some 
countries with single-payer health care that did well. Taiwan 
has single-payer health care. They come out No. 1 in our 
ranking. But Italy comes in second to last, if I recall 
correctly, and they are--they also have single-payer health 
care. The UK has single-payer health care. Their mortality is 
far higher per million residents than the United States----
    Mr. Crenshaw. But--and it is also far higher for 
minorities, too.
    Mr. Roy. Yes, that is true, yes.
    Mr. Crenshaw. The same disparities that we do, and yet they 
have single payer. We just have to point these--out these 
facts. If we are going to just jump to a single solution, we 
have to at least agree on the--a common set of facts.
    Also, what are the public health impacts of lockdowns, 
especially with low-income and minority communities? Aside from 
economic and job loss, what about public health?
    Mr. Roy. This is a really important question, and, you 
know, I mentioned it a bit earlier in one of my other 
responses.
    A lot of this is going to be difficult to measure, because 
we don't actually--some of these effects are going to be long 
term. The person with chronic disease that didn't have it 
managed over this period of time, the manifestations of that--
--
    Mr. Crenshaw. By the way, the uptick in cases is that, it 
is not their lungs being inflamed. I realize that I am out of 
time, and sorry to interrupt you.
    But thank you, Mr. Chairman, for--and I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from California, Mr. Panetta, for five 
minutes.
    Mr. Panetta. Thank you, Mr. Chairman, Mr. Womack, and I 
appreciate both of you holding today's hearing on the 
inequalities and dealing with the COVID-19 pandemic. And of 
course, thank you for the witnesses, for all of their 
expertise, all of the preparation and their time for coming to 
talk about, hopefully, not just the problems, but some 
solutions that we can have, going forward in this pandemic and 
addressing the inequalities in our nation.
    As many of you know, over the last three months what has 
been highlighted are those inequalities, from health care to 
wealth, education, to justice and, yes, to housing, as well. 
And they have collided, clearly, with one of the deadliest 
pandemics the world has faced in a century or more. But 
unfortunately, what we are seeing is that the lower income--
and, yes, the communities of color--have borne the brunt of 
this pandemic.
    And we see it right here in where I represent, where I 
live, where I grew up, on the central coast of California, as 
my friend, Mr. Kildee, likes me to say, here in the salad bowl 
of the world. Obviously, we have a lot of agriculture, but we 
have a unique sort of agriculture that doesn't take machines, 
it takes human beings to harvest. And so we have a large--
thankfully, a large immigrant community that has contributed so 
much to our economy, to our community, and to our culture, who 
we are.
    In Monterey County alone, look, I will be the first to 
admit we are not a hotbed at this point. We only have about--as 
of yesterday, about just over 1,200 cases of COVID-19, and we 
have endured 12 deaths, unfortunately, because of the disease. 
But within that number, 80 percent of the COVID-19 cases have 
been found in the Latinx community, and nearly 40 percent have 
been farm workers.
    And so, unlike some parts on the central coast, this 
community has not had the option to work from home, as you 
know. It is our farm workers that continue to work through the 
pandemic, put food on all of our tables across this country, 
not just here on the central coast, and, yes, provide this 
country with the food security that is so needed, especially at 
this time--and even now, as cases spike up in California.
    And so, Dr. Harris, I want to address questions to you, if 
that is all right. As you probably know, 25 percent of 
undocumented farm workers in the United States have health 
care, health insurance. That is only 25 percent of undocumented 
farm workers, which--unfortunately, I think we know there are a 
significant number of undocumented farm care--farm workers. 
What do you feel are the ways that we can ensure that farm 
workers get health--the health care that they need, despite the 
obstacle of uninsurance?
    And are there changes, solutions, like I said, that 
Congress can make, can put forward to help undocumented 
immigrants gain access to health care providers, Dr. Harris?
    [Pause.]
    Mr. Panetta. Your microphone. The----
    Dr. Harris. Yes, thank you. Certainly I leave it up to the 
wisdom of this body, your colleagues in the Senate, to the how. 
But I can tell you that it is important for everyone to have 
access to insurance because, just like this virus that may have 
impacted first others in other countries, you know, we say the 
pandemic or an epidemic anywhere certainly impacts us here in 
the U.S.
    And so illnesses don't respect state boundaries, county 
boundaries. They don't know who is here, and who is documented, 
who does not have proper documentation. And so it is really 
important we--the AMA made a strong statement about making sure 
that children had access to vaccinations and quality care from 
their pediatrician.
    And so I will just say it is important for everyone to have 
access to appropriate health care.
    Mr. Panetta. Understood. Now, obviously, we have heard from 
a couple of my colleagues--and I am seeing it here on the 
central coast--telemedicine has been helping. Yet there are 
some difficulties, obviously, with foreign-born or non-English-
speaking population. Dr. Harris, are there ways that we can 
improve that for rural areas and communities of color?
    Dr. Harris. Absolutely. Telemedicine certainly--and many, 
many of us--I know I used telemedicine pre-COVID, but certainly 
COVID did accelerate that use, and we appreciate the relaxation 
of the regulations.
    But we need to look at issues around broadband, actually in 
both urban areas and rural areas. We need to look at the issue 
of whether or not there is a computer or more than one 
computer. And confidentiality, you know, we are talking about a 
private medical need. So these are all needs that need to be 
addressed, as we move forward with telemedicine.
    Mr. Panetta. Thank you, Dr. Harris.
    Thank you again, Mr. Chairman. I appreciate the 
opportunity. I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from Tennessee, Mr. Burchett, for five 
minutes.
    Mr. Burchett. Thank you, Mr. Chairman, and thank you all 
for being here--Mr. Ranking Member. If I could take a personal 
privilege, I hope we all remember our colleague, Andy Barr, in 
our prayers. He lost his wife and two beautiful little girls 
lost their mama, and that is just--to me, it is just 
heartbreaking. My wife was a widow, and I married her and 
adopted a little girl, so I know--and she has talked to me 
about the impact of that. So I hope we all remember Andy in our 
prayers.
    And I appreciate the opportunity to be here.
    And Ms. Harris, I would ask of you, when you started to 
talk about telemedicine, I was up in Claiborne County, and I am 
sure you know what Claiborne County is--nobody does. It is a 
very small county. It is about 2 percent of my district. But 
they actually utilize telemedicine. And I would encourage you 
all to reach out to them and some of the folks up there, 
because they had some great success with that up there, 
especially during this outbreak of the virus.
    But Mr. Roy, I was wanting to know, you have studied and 
published some of the failures of Medicaid to improve our care 
for low-income Americans. How can we leverage some of that to 
create and contain and prevent the spread of the coronavirus?
    And how will the solution actually provide better care to 
some of our more vulnerable populations?
    Mr. Roy. Well, you know, let me go back to something Mr. 
Crenshaw was pointing out, which is that the biggest disparity, 
the single biggest disparity when it comes to the impact----
    Mr. Burchett. Can I stop you? Can I stop you one second? 
Don't ever refer to Dan Crenshaw, because his ego is so big I 
don't know if his head is going to fit on screen much more, but 
please continue.
    Mr. Roy. Fair enough. I respect that, Mr. Burchett, so my 
apologies.
    The biggest disparity is the fact that 0.6 percent of the 
U.S. population lives in long-term care facilities, nursing 
homes and assisted living facilities. And that is where 43 
percent of all U.S. COVID-19 deaths are occurring. And 81 
percent of all deaths from COVID-19 are happening among people 
aged 65 or older.
    And how does this relate to your question? It is because 
Medicaid is one of the biggest drivers of this problem, because 
if you are medically vulnerable, and you need help with 
activities of daily living, and you are in Medicaid, you have 
to go to a nursing home to get the care you need. You are not 
allowed to use Medicaid dollars to get that care in your own 
home. That is one of the things about Medicaid that is 
incredibly inflexible, and that has led to an enormous 
distortion in the way we deliver nursing home care, and it has 
also put the Medicaid population in disproportionate--
disproportionately in harm's way.
    Mr. Burchett. Let me ask you also--I know you have done 
some research on the economy prior to the coronavirus. What 
would you suggest that we can do when state, federal, and local 
elected offices and--I guess just the bureaucracy can make this 
thing work out better and provide better health care for our 
country?
    Mr. Roy. Well, I think the most important thing we can do, 
and as you may know, we have a plan that we have put out at 
FREOPP called Medicare Advantage for All. And the basic idea is 
that everyone should own their own health insurance, and they 
should be able to take it from job to job.
    And the way you do that is by reforming the market for 
people who buy insurance on their own, the one that Obamacare 
made so much more expensive, and improve that market so people 
really have choices that are high-quality coverage, but also 
affordable; that allow them, if they lose their job, to then 
buy insurance that they can keep and then take wherever they 
go.
    Mr. Burchett. I will yield back the rest of my time, unless 
Jimmy Panetta wants to discuss anything else.
    Chairman Yarmuth. The gentleman yields back the rest of his 
time. I now recognize the gentleman from California--from New 
York, Mr. Morelle, for five minutes.
    Mr. Morelle. Thank you, Mr. Chairman, very much. And thank 
you, once again, for holding a series of important hearings to 
talk about the pandemic and the impact that it has had.
    I do just want state for the record that if the President 
of the United States had demonstrated half the leadership of my 
friend, the Governor of New York, thousands of Americans might 
not have contracted COVID-19 in the first place. But I will 
leave that to another day. But I do want to defend my friend 
from New York.
    I do want to talk about, obviously, the wealth and health 
inequality in America. And the devastation that has occurred in 
the wake of this crisis has been made all the worse by the 
deep-seated inequalities that have plagued our country for 
decades.
    Racial and wealth disparity were at the root of our 
nation's academic achievement gaps before COVID-19. I don't 
have to tell any of you that; we know that health and education 
are intrinsically linked, and economically marginalized and 
segregated neighborhoods are more likely to have less access to 
resources that help children and adults lead healthier, safer 
lives. And the resulting and persistent cycle of systemic 
disadvantage, whether it is academic achievement gaps, health 
care disparities, and unjust wage differences for Black 
Americans compared to their white peers, has made it near 
impossible to gain equity in this country.
    The pandemic has not only shined a glaring spotlight on the 
lack of investment in resources available to Black communities 
and schools, it has exacerbated the health and educational gaps 
to a breaking point. So as we begin to rebuild our communities 
and regain our footing, we have a very real opportunity and a 
responsibility to take intentional and preemptive actions to 
safeguard these communities against further fallout, and to 
address the underlying social deterrents to health that we have 
seen reflected in other diseases for decades.
    And deep-seated inequalities have played our community--in 
my community. We have seen a four-times rate of infection, over 
a five-times rate of hospitalization, and a two-and-a-half time 
mortality rate among Black Americans in the Rochester, New York 
community. So I know that we are not alone; that is being 
experienced around the country.
    I want to ask Dr. Harris--how has the COVID pandemic 
worsened pre-existing racial inequities in neighborhood quality 
and in the built environment, as well as access to community 
health support services for people of color?
    Dr. Harris. I think three overarching areas, and thank you 
for the opportunity to answer the question.
    I think, first of all, again, the pre-existing conditions, 
again, that were already there before COVID-19, the 
disproportionate impact of diabetes, hypertension, asthma, 
obesity.
    Second was you had more members from communities of color 
who were working those essential jobs. It has been noted they 
didn't have the privilege of staying at home. They had to go 
out and work. Actually, so many of us who had the privilege 
could have the food security. And, of course, that increased 
their risk of exposure.
    And third, you know, I think it is the misinformation, the 
disinformation that has been out there.
    And then we really have to talk about 401 years of racism 
and discrimination and bias that have led us. Here in Atlanta I 
was working with the group, and we were looking at the 
discriminatory housing policy of redlining. And we could line 
up those neighborhoods with the zip codes now that we see with 
severe health inequities.
    I do want to say something. I do respect Dr. Roy and, of 
course, respect a marketplace of ideas. I do want us to have a 
closer look to the rising tide lifts all boats. That is true, 
but that is not sufficient. I think we need to dig deeper, 
because it may lift all boats, but it may not lift everyone 
up--may not lift every boat up to where it needs--everyone can 
get an equitable opportunity for health. So I think, as we 
think about that, we have to--at least I would worry about 
these--sort of these one-size-fits-all solutions.
    Mr. Morelle. Thank you. I want to ask Dr. Deaton--and any 
of the other panelists might comment, as well--but how can we, 
as we get--begin to move forward, rebuild our economies and our 
communities in a purposeful way that prevents the further 
deepening of the academic achievement gap, particularly as we 
head into the summer months? Do you have any thoughts on that, 
sir?
    Dr. Deaton. Sorry, sorry, I didn't hear a question. Was 
that directed----
    Mr. Morelle. Yes, I just want to know, as we sort of--and I 
may be running out of time, so--I just want to--any thoughts 
you had on rebuilding our----
    Chairman Yarmuth [continuing]. give you more time.
    Mr. Morelle [continuing]. communities in a purposeful way 
to prevent the further deepening of the academic achievement 
gap, particularly as we head into the summer months, when many 
students are not in school.
    Dr. Deaton. Yes, I think that is going to be one of the 
hardest problems that we are going to have to deal with, 
especially, as the lockdown of schools, which was probably not 
a very good idea, has widened these gaps enormously. So I am 
very much with that.
    Mr. Morelle. I yield back my time. Thank you, Mr. Chair.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from Texas, Mr. Flores, for five 
minutes.
    Mr. Flores. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in today's hearing. My broadband 
service has been a little bit spotty today, so I am hopeful 
that everybody can hear me, and that I don't drop off in the 
middle of this, in my middle of my five minutes.
    Mr. Roy, in previous testimony you said, ``The association 
is clear. A strong economy most benefits minorities, and a 
worsening economy most hurts them.'' House Democrats have made 
known their desire for heavy top-down structural changes in our 
economy.
    And so my question is this. In your view, is this top-down, 
heavy-handed approach the best policy direction for helping 
minorities, or would you recommend policies more focused on 
strengthening the economy, thus providing greater opportunities 
for minorities?
    Mr. Roy. Well, leaving aside the party piece of it, I mean, 
I would just say, definitely, that economic growth is 
incredibly important, and we have to be extremely mindful of 
policies that would not only suppress economic growth, but 
suppress job growth. You know, we have talked a little bit 
today about the $600 bonus that is leading people to basically 
not get back into the work force, and that is retarding the 
economic recovery.
    So I am very concerned that I hear the Congress is thinking 
about renewing or restoring or extending that policy. That is 
going to make it a lot harder for employers to get back on 
their feet, and we are going to see--we already have seen 
100,000 or more small businesses close because of lockdowns. 
That number could increase considerably if that feature of the 
CARES Act is extended.
    Mr. Flores. One of the related features that has come out 
of the pandemic--and not only in terms of economic impact, but 
it has a follow-on economic impact--is the fact that we have 
several regulations that were found to impede our ability to 
respond to the pandemic, things like hand sanitizer guidelines, 
truck driving limits, things like this.
    So I have a question for all of the panelists, starting 
with Dr. Deaton. Are there any regulations that you think of 
that have hindered the ability to respond to challenges of the 
pandemic?
    And are there any regulations you can think of that 
disproportionately harm minorities and low-income communities?
    Dr. Deaton. Well, I am someone who feels that one of the 
greatest disasters in America these days is the health care 
system, and much of that is to do with regulation. I have a 
different view, though, that I think removing regulations is 
not the right way to go. I think that what we need is a system 
that automatically insures everyone from birth. I think we have 
to have a system that controls costs, which is very important.
    It is true that our health care system has not done any 
worse in this pandemic than other countries' health care 
systems, and it is too much, really, to ask any health care 
system to deal well with something that only happens--only 
happened 100 years ago before. But----
    Mr. Flores. I have just a few minutes----
    Dr. Deaton. Every other country----
    Mr. Flores. Dr. Deaton?
    Dr. Deaton. Sorry?
    Mr. Flores. Excuse me, can I go to Dr. Harris?
    The regulations question.
    Dr. Harris. Well, I think we chatted earlier about the 
regulations regarding telehealth, and I think that was very 
important.
    And I will say this from a broader perspective regarding 
substance use disorder, not necessarily just communities of 
color, it was important to reduce a lot of those regulations so 
that patients who had an opioid use disorder could get the 
medications that they needed, and we didn't have the dose limit 
or the time limit. So those were very helpful, as well.
    And there was some loosening of regulations regarding prior 
authorizations for services and medications, and those were 
helpful, as well, during this time.
    Mr. Flores. OK, thank you.
    Dr. Jones, can you give me 30 seconds in terms of 
regulations that have hindered the ability to respond to the 
pandemic, and regulations that disproportionately harm minority 
communities?
    Mr. Roy, we will get to you when we have got about 30 
seconds left.
    Dr. Jones. At the moment, I--there are no specific 
regulations that are coming to mind to me, so I will pass.
    Mr. Flores. OK, Mr. Roy, you----
    Mr. Roy. Well, I would love, Mr. Flores, for Congress to 
make permanent some of the regulatory relief that has been 
temporary around telemedicine, telehealth, practicing medicine 
across state lines, allowing your license to be used if you 
move states without having to get recertified. Those are some 
of the simple things we could do, not just for physicians, but 
also for nurses.
    Mr. Flores. Right.
    Mr. Roy. Broadly speaking, I should mention that the 
regulatory reforms of the last several years are a big driver 
of the record low unemployment that we enjoyed prior to the 
pandemic. That is worth noting, as well.
    Mr. Flores. Right, and I appreciate it, and I agree with 
you. I think the regulations that we have modified in light of 
this pandemic should be extended permanently.
    I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentleman from Nevada, Mr. Horsford, for five 
minutes.
    Mr. Horsford. Thank you, Mr. Chairman and to the Ranking 
Member, for holding this hearing, and to all of our panelists 
for joining us today.
    Dr. Harris, it is great to see you again. Thank you for 
your tremendous leadership over the years at the American 
Medical Association and in your practice.
    As many of you may be aware, Nevada, my home state, is the 
hardest-hit state, economically, in our nation and has the 
worst unemployment rate, at over 25.2 percent as a result of 
the coronavirus pandemic. Few places were hit harder than Las 
Vegas, where a full one-third of the Las Vegas economy is in 
the leisure and hospitality industry, more than any other major 
metropolitan area in the country. Most of those jobs cannot be 
done from home.
    The New York Times did an article back in April that was 
titled, ``How Las Vegas Became Ground Zero for the American 
Jobs Crisis.'' And they brought to light the devastating 
impacts that this virus has on African-American families and 
those Latinx and other communities throughout southern Nevada. 
The article highlighted how Mr. and Mrs. Anderson both lost 
their jobs at a restaurant and a call center, respectfully 
(sic), and immediately began to worry about how they would pay 
rent and provide food for their daughter. This is one of the 
many examples as to how COVID-19 has dramatically impacted 
African-American households.
    In 2018 the poverty rate for African-American families was 
more than two-and-a-half times the poverty rate for whites. And 
the poverty rate for Latinx families was more than twice that 
of whites.
    Disparities in the child poverty rate are even more stark. 
The child poverty rate for African-Americans in 2018 was more 
than three times the child poverty rate for whites, up from 
about two-and-a-half times the rate for whites in 2013.
    But none of this is a coincidence. The inequities we see 
today were not caused by COVID-19. They are a result of 
systemic racism that has impacted every aspect from health, 
education, financial, housing, and other institutions, and it 
has affected the opportunities across the board.
    Now, there is data that I just read yesterday from the 
Center on Poverty and Social Policy that indicates how the 
child poverty rate could be cut in half if Congress would 
approve the American Family Act, which expands the Child Tax 
Credit that would provide $3,600 for kids under six years of 
age, and $3,000 for older kids. That poverty rate among Black 
children would drop by 52 percent and among Latinx children by 
41 percent.
    Dr. Harris, what long-term effects might the COVID-19 
pandemic have on children, and how might it affect their 
physical and mental health, as well as their economic potential 
in the long term?
    Dr. Harris. Well, certainly, many areas there, but let me 
just highlight one or two, and the first is the issue around 
trauma. We have bourgeoning evidence that trauma experienced 
early in childhood--many may be familiar with the adverse 
childhood experience survey--leads to both short-term and long-
term health impacts, and not just mental health, not just 
psychological health, but also long-term cardiovascular health, 
diabetes, and some of these other issues.
    We certainly think about abuse and violence as typical 
trauma. But certainly the day-to-day traumatic experience of 
racism, and perhaps living in poverty, and some of these other 
issues can also have a cumulative effect. It is known in some 
papers as ``weathering effect'' on African-Americans.
    And so again--and earlier I talked about previous housing, 
discriminatory--discriminatory housing policies. So all of 
these impact both short and long-term health.
    Mr. Horsford. Thank you.
    Dr. Jones, briefly, how does structural racism affect 
health care outcomes in the United States, and how does it 
affect the quality of care that people of color receive, some 
of the health behaviors relating to housing and food 
availability and other social determinants?
    Dr. Jones. Yes. I think that there are a number of ways in 
which structural racism can affect these health outcomes.
    I think that, when we look at the United States and 
compared it to other countries in terms of health outcomes, we 
have relatively higher rates of maternal mortality, for 
example, during childbirth. And some of this could be linked to 
discrimination and biases among doctors and how they view, for 
example, Black women.
    And so these deep-seated issues of racism, they are 
prevalent when doctors are being trained, among--it feeds into 
the composition of doctors that we have, and then it can spill 
over into the types of services that are delivered. That is 
just one example.
    Mr. Horsford. Thank you very much. And I yield back.
    Chairman Yarmuth. The gentleman yields back. I now 
recognize the gentlelady from Texas, Ms. Jackson Lee, for five 
minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I am in 
the office with one or two staff. I will take off my mask as, 
obviously, in Texas we have been hitting a spike of enormous 
proportion. Our hospital beds are now overwhelmed. Our 
emergency rooms are overwhelmed with COVID-19. And I think this 
is certainly an appropriate hearing, as it deals with wealth 
inequality in America and really, as I have been listening, the 
lack of access to health care.
    So I am going to, if I might, Dr. Harris, if I might focus 
on you, and my focus will hopefully be an area that you have 
had some exposure to, just by hearing the word, but I am going 
to articulate it in a more definitive manner.
    And I would really like--first of all, let me congratulate 
you, Dr. Harris, for your leadership of the American Medical 
Association and, really, the innovative work that you have been 
doing as relates to health care disparities. It is very 
distinguished and well appreciated.
    So I would like to, as well, comment on this inequity in 
wealth. I heard someone attacking the Affordable Care Act. If 
all of the states, the red states, had accepted the Medicare 
expansion, we would have included more persons. If we had 
allowed the Affordable Care Act to take its will and to be able 
to develop the body politic and to include young people, we 
would have had a very strong health care system. But it has 
been attacked and stripped and strained, and it is an outrage.
    I do believe that Medicare should be modified to include 
the opportunities for individuals to be in their homes and 
still have the ability to have care, as persons who are in need 
of care.
    But my question to you is that we have experienced over the 
last couple of weeks the recognition by many of systemic 
racism. We have introduced the legislation for over 30 years 
called the commission to develop proposals for reparations and 
proposals (sic). It is a thoughtful, articulate expression of 
addressing the question of systemic racism, and presenting a 
commission that will look at the issues of health care, the 
economy, psychological issues, sociological issues, scientific 
issues. And I think we have a vehicle that can address what we 
are trying to do piecemeal, meaning that we have people focus 
on the over 200 years of slavery that have, obviously, had an 
impact in the denial of wealth, the inability to transfer 
wealth.
    So you are a doctor. I would appreciate your commentary on 
looking at it through the eyes of the commission to deal with 
and develop real proposals on the question of the plight of 
African-Americans as relates to any number of issues. And you 
may speak to the issue of access to health care.
    I believe another witness is Dr. Jones from the Chicago--
University of Chicago. But Dr. Harris, could you please answer 
the question?
    Dr. Harris [continuing]. issues that you mention and that 
might be addressed in that legislation are critically important 
issues.
    For many years I think we looked at health through a narrow 
lens, and now we really have to open up that lens. And when we 
are talking about these health inequities, we do have to go 
back to the 400 years of slavery, and Jim Crow, and all of 
those issues.
    I will say something that the AMA has done regarding 
reconciliation. Many of the audience and many of the Members of 
Congress may know that for decades the AMA did not allow Black 
physicians to belong to the AMA. And we do believe that that 
probably impacted where we are today. So we are looking 
internally, as we move forward.
    But in 2008 the AMA went on record to apologize for that. 
Now, that was a necessary step. Not sufficient. And we have 
done things since then. We have a new center for health equity. 
But critically, an important note in reconciliation is 
admitting your past mistakes.
    Ms. Jackson Lee. So you understand reparations is repair, 
and is different from reconciliation. So I am talking about 
H.R. 40.
    Dr. Harris. I do.
    Ms. Jackson Lee. And do you believe we need reparations, 
repair, and restoration, as well?
    Dr. Harris. Well, I have to say I am here representing the 
AMA today. I don't think we have taken an official position, 
but I am a Black woman in this country, and I do think we need 
to look at that issue seriously, and particularly how those 
issues impacted health.
    Ms. Jackson Lee. Thank you. Is Dr. Jones there, Dr. Damon 
Jones?
    Thank you very much, Madam President.
    Hello?
    Dr. Harris. Thank you.
    Dr. Jones. Yes. Yes.
    Ms. Jackson Lee. Could you respond to that, as well?
    Dr. Jones. Yes. So I think that, as I mentioned, I think 
that that--we should move forward with that bill to create a 
committee.
    One of the steps has to do with reconciliation and, again, 
getting closure. But as you mentioned, there is also redress 
for what has happened in the past. And so material reparations, 
I think, as well, should be included. Both of those are 
important, because we continually see ourselves back at the 
same point with racial strife in this country. And so we are 
not going to get past that without looking deeply into this 
country's history, and trying to repair some of those problems.
    Ms. Jackson Lee. I commend H.R. 40 to both of you, in terms 
of looking at it from your perspective on health care. The 
commission, appointed by Members of the U.S. Congress 
leadership and the President of the United States, would then 
be tasked with a repairing and restoring of the seismic impact 
of slavery, the original sin, on African-Americans who don't 
have the inherited wealth, who are impacted by health 
disparities in a very severe manner, and are impacted more 
severely by COVID-19, both economically and health-wise. We 
need a systemic change dealing with systemic racism. And I 
think, as we look at it from the budget perspective, all of our 
committees should look at this extensively.
    And I am just going to you, Dr. Jones. I know I have a 
second or two. But we have to look at it holistically, and----
    Chairman Yarmuth. No, you----
    Ms. Jackson Lee.--is a way to do so.
    Dr. Jones?
    Chairman Yarmuth. No, you are way over time. You are way 
over time.
    Ms. Jackson Lee. All right, well----
    Chairman Yarmuth. I am sorry. The gentlewoman's time has 
expired.
    Ms. Jackson Lee. Thank you.
    Chairman Yarmuth. I now----
    Ms. Jackson Lee. Thank you, I yield back.
    Chairman Yarmuth. I now yield five minutes to the gentleman 
from Virginia, Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. And Mr. Roy, 
let me ask Mr. Roy a question first.
    And I thank you for testifying on the Education and Labor 
Committee yesterday. When you say liability protection on 
coming back and reopening, are you talking about liability 
insurance coverage so that victims can get covered, or are you 
are talking immunity, where the victim is stuck with his own 
bills?
    Mr. Roy. Well, I don't know if I am exactly talking about 
either of those things. What I am talking about is employers 
are very reluctant to reopen their workplaces, because they are 
concerned that if a single worker at their place of employment 
eventually gets COVID-19, and that COVID-19 was contracted 
somewhere else but----
    Mr. Scott. Well, yes, yes----
    Mr. Roy [continuing]. outside the workplace----
    Mr. Scott. They--but who would--people get sick, and the 
employer could pay under present law.
    Mr. Roy. Oh, well, that is different, right? So if the 
employer is paying for their health insurance, then the health 
insurance should cover COVID-19, of course.
    Mr. Scott. Yes. OK. So when you talk about liability 
protection, are you talking about an insurance company to cover 
the liability, or are you talking about immunity, where the 
employer is home free?
    Mr. Roy. Well, I am talking about legal protection for 
employers, so that they are not at risk of bankruptcy due to 
someone who contracts COVID-19----
    Mr. Scott. And you could do----
    Mr. Roy [continuing]. outside the workplace----
    Mr. Scott. You could do that with insurance.
    Mr. Roy. You could do that----
    Mr. Scott. So it--yes.
    Mr. Roy. But the employer pays for the insurance, right? So 
if the employer pays for the insurance, that increases the cost 
of employment.
    Mr. Scott. OK, well, I don't think you had an answer to 
that.
    Let me ask Dr. Harris a question. We have heard a lot of 
disparaging remarks about the Affordable Care Act. Dr. Harris, 
you are aware that when the Republicans tried to replace the 
Affordable Care Act, their replacement was scored by the CBO, 
and it concluded that the cost would go up 20 percent the first 
year, 20-some million fewer people would have insurance, those 
with pre-existing conditions would lose their insurance, and 
the insurance you get is worse than what you got.
    Can you say--so we know that ACA--repeal and replace, but 
repeal just generally--and Medicaid expansion, could you just 
say how Medicaid expansion would be helpful to reduce the 
disparities, and how ACA repeal would be harmful, and make the 
disparities worse?
    [Pause.]
    Mr. Scott. Dr. Harris?
    Dr. Harris. Can you hear me? Thank you.
    Mr. Scott. Yes, I can hear you now.
    Dr. Harris. Thank you. Yes. And as you know, the American 
Medical Association did support the Affordable Care Act. 
Certainly, it was not a perfect piece of legislation, but it 
did move us further in reducing the number of uninsured in this 
country. And at this point, we believe that the best path 
forward is to strengthen and enhance the Affordable Care Act, 
and that does include the expansion of Medicaid.
    Certainly, I know so many--and I am a psychiatrist--but in 
all disciplines of medicine so many previously uninsured 
patients were able to gain access to health care through the 
Affordable Care Act.
    And we also know that if you don't have insurance--and, of 
course, for other--many other reasons, lack of access, all of 
the social determinants of health--you live sicker and die 
younger.
    And so we at the AMA continue to support strengthening and 
enhancing the Affordable Care Act. We continue to support a 
bipartisan and bicameral solution to getting us to a point 
where everyone has affordable, meaningful coverage in this 
country.
    Mr. Scott. Thank you. And I will ask our other witnesses--
we can talk about the problem, or we can come up with 
solutions. We are talking about a lot of solutions about income 
and wealth inequality. Some of the things we are working on are 
increasing the minimum wage; making it easier to form a union 
so you can negotiate for higher wages; investments in 
education, particularly higher education and making that 
affordable; housing andj home ownership initiatives, because 
that is where most middle-class families get their wealth; and 
fighting discrimination, everything from employment to business 
loans to housing, so that equally postured people will get--the 
minorities will not be worse off.
    Can you say anything about which of those initiatives are 
most important, or anything else that we ought to be actually 
working on?
    Dr. Deaton. This is Angus Deaton here. Yes. I mean, I think 
I made a case for all of these in some of my writings.
    The one I would emphasize that you didn't emphasize is I 
think we have to somehow rein in the cost of health care. The 
cost of entitlements, as we have heard, are bankrupting the 
nation. But the cost of entitlements are so large because 
health care costs so much, and we have got to bring those costs 
down. The waste in health care is 50 percent more than we spend 
on national defense, and that is just a completely crazy 
number. And other countries manage to do this not necessarily 
any better than we do it, but they do it at less than half the 
cost.
    And that would stop the--of employment for less skilled 
Americans, for African Americans. And it would give us a chance 
to get back a reasonable chance of prosperity for less 
fortunate Americans who have really been suffering over the 
past 50 years. It is OK to say the economy was doing pretty 
well up until February, but people were dying in droves, and 
there were 158,000 deaths of despair last year. That is not 
something that happens in a well-functioning economy. Thank 
you.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now recognize----
    Mr. Scott. I----
    Chairman Yarmuth. Oh, sorry. I now recognize the Ranking 
Member, Mr. Womack, for 10 minutes.
    Mr. Womack. Thank you, Mr. Chairman. And thanks to all of 
our panelists today.
    Let me begin with part of my thesis. When I opened in my 
opening remarks in talking about deficits and debt and the need 
for certainty, the need for--I didn't talk necessarily about 
budget reform, but the Chairman and I have a long history on 
promoting some kind of reform so that we can get to the 
business of doing the people's work without CRs, omnibus 
packages, and those kinds of things. I just kind of put all 
that in the category of bringing certainty to the governmental 
process.
    But in my thesis I talk about the pressure that deficit and 
debt and, in particular, the net interest on the debt, which is 
rising exponentially, and the impact it is going to have on 
programs that benefit, largely, the vulnerable population, and 
whether it is in the minority communities, or vulnerable 
seniors, or this sort of thing.
    So here is my question for each of the four panelists. And 
be very brief in your response, because I don't have a lot of 
time, and I am--and I hope not to use all of my time. But we 
will start with Mr. Deaton.
    Does deficit and debt matter, and is it a concern of yours? 
Because we have had a lot of proposals thrown out in this last 
couple of hours. All of them have a price tag to them. Do 
deficits and debt matter? And if so, when should we be serious 
about it?
    Dr. Deaton. I think deficits and debts do matter. They 
matter in a somewhat complicated way, and it is a very lively 
topic of discussion among my colleagues.
    But let me go back to something I said a minute or two ago. 
Before COVID came--and COVID is a whole special case, because 
we have never had budget deficits, we have never had a pandemic 
like this before. Before COVID, all the red ink out into the 
future is driven by the high cost of medical care. If we can 
bring that under control, then we wouldn't have this problem. 
So this problem is important, and that is the key to getting it 
under control.
    Mr. Womack. Dr. Jones?
    Dr. Jones. Yes, I would say that it is important to think 
about deficits and debt. I don't think now is the time to place 
the most weight on that. I think we are in an emergency 
situation, we are in a crisis, and that is the time where you 
draw into the deep pockets of the federal government to bail 
people out, because there are people in deep need, and they are 
in need of relief.
    I think that if interest rates were rising, or if we 
thought that there was not enough capital flowing around for 
people to borrow, then you may think more about these things. 
But I don't think that that is the case right now.
    Mr. Womack. Dr. Harris?
    Dr. Harris. I don't feel qualified to talk about deficits 
and debt. But I do want you to know that, as physicians in the 
physician community, we do think that we need to continue to 
have fair-minded debates around the cost of health care, the 
value of health care, and health care financing. So I can 
commit that I will be a part of that conversation, and I will 
leave it to the economists for the deficits and debt.
    Mr. Womack. OK. So, Dr. Roy, as you get ready to answer the 
question--and I am paging through some of your testimony, but 
you said early on, if I can--and I may not be able to find it, 
but you said--you made a case early on in your testimony, in 
your opening remarks, about the impact of deficits and debt and 
the pressure it is going to have on all of the programs, 
particularly the social safety net programs, but in addition to 
a lot of other programs that affect specific communities that 
we are talking about here today. So I am assuming that you 
believe that deficits and debt do matter.
    Mr. Roy. Absolutely. I completely agree with what you were 
describing earlier about how a fiscal reckoning will 
particularly harm economically vulnerable populations. And I do 
describe that in my testimony.
    One thing I should mention is that we have actually put out 
a comprehensive plan called Medicare Advantage for All that 
involves universal private insurance like that in Medicare 
Advantage for everyone. And there is actually a bill that has 
been introduced in Congress by one of your colleagues from 
Arkansas, Bruce Westermann, that is based on on that bill.
    And one thing I should mention that we talk about 
extensively in that report is how to reduce the high cost of 
U.S. health care.
    One thing I should mention in this hearing in particular is 
the fact that one of the ways--the way in which Medicare pays 
physicians for their care, and the prices that Medicare pays 
for that care, are determined by physicians. There is a secret 
committee of specialty societies called the RUC Committee that 
basically determines what prices the taxpayer pays through 
Medicare for those services. It is one of the most egregious 
examples of conflict of interest in the federal budget, and it 
is something that I hope Congress can revisit as it tries to 
find ways to reduce the high cost of health care.
    Mr. Womack. Well, and back to your testimony, I subscribe 
to the notion that deficits and debt do matter, because 
eventually we are going to become a credit risk. And when you 
become a credit risk you are going to be paying more in 
interest for the people that are buying your paper.
    And if that is the case, then the more interest you pay--
and, let's face it, I don't know what the deficit or the debt 
is today. I know the deficit we are going to rack up is 
somewhere in the vicinity of $4 trillion. But the net interest 
on the debt that we are going to pay for--and I am an 
appropriator, too, so I can speak to this--is going to put a 
lot more pressure on our ability to fund a lot of the things 
that most of the panelists, all of the panelists, my colleagues 
on this panel, believe are important to our country on the 
discretionary side. It is going to put an enormous amount of 
pressure on that. We are going to pay more in net interest. And 
I believe that, eventually, net interest on the debt is 
probably going to exceed what we spend on national security, 
which would be unheard of, in my opinion.
    So I subscribe to the notion that deficits and debt do 
matter, and we have got to be careful when throwing around a 
whole lot of other programs that are going to cost an 
extraordinary amount of money, not necessarily intent on 
raising the revenue that would need to go to support it.
    I said in my opening statement that before COVID this 
country was clicking along at a pretty good pace, and 
specifically to our minority communities: Black, Hispanic, 
Asian unemployment, 5.4, 3.9, 2.1 percent, respectively. Now 
they have gone higher because of COVID. It makes sense to me, 
Dr. Roy, that when we climb out of this COVID hole, that we 
need to go back to the policies that had us on track and had 
historic lows of unemployment and economic prosperity before 
COVID hit. Would you agree?
    Mr. Roy. Well, there is no doubt that the quicker we can 
get back to that policy mix, that would be great. I am very 
concerned that we won't, and I am very concerned that Congress 
is on the verge of making it worse, because if Congress gives 
states a powerful incentive to stay locked down, then that is 
going to continue to retard the recovery, retard the ability of 
those lower-income, economically vulnerable populations to get 
back to work.
    Mr. Womack. In my remaining time, one of the things that an 
emergency like COVID forces a country to do is to become less 
dependent on the way we have always done things, and start 
looking for innovative ways.
    And so, in the area of--particularly of health care and 
education, we have had to rely a lot more on what we are all 
doing on computers, kind of like what we are doing here today. 
And so I would assume I would get an affirmative response from 
every single one of you that in a future infrastructure package 
the ability for this country to get rural broadband--and maybe 
I shouldn't just say rural broadband. I think one of you said 
earlier even on the inner city we have some connectivity 
issues. But this country does have the capacity to become very 
innovative in the way we teach, in the way we do research, and 
in the way we do particularly telemedicine, using these devices 
that we are all on here today.
    Do you agree with that, Dr. Deaton?
    Dr. Deaton. Yes, I do. I mean, I am not sure I would--we 
would agree on all the details. But, for sure, fast Internet 
access for everybody is incredibly important. And then we can 
let this grow from there.
    Mr. Womack. Dr. Jones----
    Dr. Deaton. And----
    Mr. Womack. Dr. Jones, would you not agree that one of the 
things that we could be doing to boost the opportunities for 
particularly--for everybody, but particularly the minority 
community, is get Chromebooks or iPads or the connective 
devices attached to the worldwide web for the express purpose 
of helping educate and better treat people with underlying 
medical conditions? Would you not agree that broadband is 
important?
    Dr. Jones. I would agree that it is important, especially 
now, when we need to be socially distant, when we need to 
replace our usual interactions with Internet access. That 
access is uneven for a number of reasons, and making broadband 
widely available would be----
    Mr. Womack. Dr. Harris, from the AMA perspective, 
obviously, we have come a long way with telehealth, and 
probably could go a lot further, could we not?
    Dr. Harris. Absolutely. And broadband is critical and so is 
innovation.
    Mr. Womack. Dr. Roy?
    Mr. Roy. Agreed.
    Mr. Womack. All right. Chairman Yarmuth, I am going to 
yield back. It looks like I am down to zero, so I have nothing 
to yield back to my friend from the Commonwealth.
    Chairman Yarmuth. All right.
    Mr. Womack. Thanks to all of you. I appreciate it. Thank 
you so much.
    Chairman Yarmuth. I thank the Ranking Member.
    Before I get into my questioning, I ask unanimous consent 
to submit statements from America's Essential Hospitals and the 
Campaign for Tobacco-Free Kids into the record.
    Without objection, so ordered.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
     
    Chairman Yarmuth. I now yield myself 10 minutes.
    First of all, let me once again thank all of our panel. 
Your responses have been very helpful and insightful, and your 
prepared statements, as well. I enjoyed reading all of them, 
and there is a lot of real good food for thought in all of the 
statements.
    One of the things that I have been doing a lot of recently, 
and I think probably most people who are in this hearing have, 
is what happens after we get through this current challenge. 
What happens when we are on a more stable economic footing? And 
what happens once we can at least control the coronavirus?
    And it seemed to me that there are a couple of things that 
we probably have learned, or are learning. And one of those is 
that there are a lot of jobs in this economy that nobody really 
gave much thinking to, but now have become pretty important 
jobs.
    And I was on a phone call several weeks ago with a group of 
union members--and, Professor Deaton, I really appreciate your 
discussion of unions in your testimony, and the importance of 
revitalizing unions.
    But anyway, there was a guy on the phone call named Greg. 
And I don't know whether Greg was Black or white. Greg is a 
maintenance worker in one of the public high schools in my 
district. And it occurred to me that six months ago there was 
not a person in the country who would have given any thought to 
Greg. But now, as we start thinking about sending our kids back 
to school, and worrying about their safety, all of a sudden 
Greg is a very important person, as are the people who stock 
the grocery shelves, and the people who drive the buses, and a 
lot of people who have never really been valued and compensated 
as commensurate with the role that they play.
    And so it occurs to me that one of the things that is going 
to happen as, again, as we get through this--and we know, 
particularly, if there is a Democratic Senate and a Democratic 
president after this next election, that there is going to be a 
serious conversation about universal basic income. There is 
going to be a very serious conversation, as has been mentioned 
here before, about reparations. There are going to be very 
serious discussions about Medicare for all, or some kind of 
single-payer system. And there--all of these programs 
absolutely do come with a cost.
    On the other hand, as I think we all recognize--and I am 
getting to a question for you, Professor Deaton--is that 
programs by themselves are not going to end systemic racism. A 
federal government, no matter what we do, is never going to end 
that. It is the responsibility of the entire society. Corporate 
America has a role, and so forth. But the idea that the only 
way to--the primary way to address the systemic racism and 
inequities in the country is to create a stronger economy 
that--where the ships all rise seems to me to be--to defy 
history. We basically relied on that theory for a long time, 
and it has not really helped.
    Could you elaborate, and could you comment on that, 
Professor?
    Dr. Deaton. I would love to. Thank you very much, Chairman.
    It is certainly true that growth is good. I mean, we would 
all like more economic growth than less economic growth. And 
when growth is high, there is--you can give someone to 
everyone--something for everybody. And it is much easier to 
deal with social conflict. I think those days have, by and 
large, gone.
    And while there has been a lot of growth in the American 
economy over the last 30 years, it is not equally distributed. 
And--but I don't really care that much about inequalities. I am 
saying a horrible thing here. But what I really care about is 
the people, the large number of people, who have been left 
behind by this economic growth, and this economic growth is 
going to the top, it is not going to the bottom, whether you 
are talking about African-Americans, or whether you are talking 
about less educated whites.
    And, you know, for a long time people were saying, ``Well, 
the numbers aren't really right. People are getting a lot more 
economic growth than the government is measuring, you should 
use these measures rather than those other measures.'' But, you 
know, that is not really right. And when you see people 
actually destroying themselves in huge numbers--158,000 people 
who destroyed themselves through drug addiction, through 
suicide--we are the only rich country in the world whose 
suicide rates are actually rising. Everybody else in the 
world--and all those people who are killing themselves, who are 
doing away with themselves, are the less educated Americans.
    And it is true that our wages were rising up until 
February. The unemployment was the lowest it had been for a 
very long time. But they are still worse off than any time they 
were in the 1980's. And this economy is just not delivering for 
them. I mean, it may be rising, but it is only raising the 
boats at the top--and it is very hard for me to see how anyone 
with serious straight face can continue to talk about trickle 
down, and how, if the economy goes up, everyone goes with it. 
The factual record is just 100 percent against that.
    Thank you.
    Chairman Yarmuth. Yes. It seems like we also have a very 
recent experience with kind of the systemic disadvantages that 
Blacks face in this country. When the PPP program came out in 
CARES, and one of the first things that we realized after--and 
it got off to a rocky start, but that was understandable. We 
didn't have agencies that were prepared to deal with millions 
of applications.
    But one thing we found out was none of this money was going 
to Black entrepreneurs, Black business owners, very little of 
it, and partially because they didn't have banking 
relationships significant enough to get help. They didn't have 
an opportunity to go out and get legal counsel to help them 
navigate through it. And so we actually set aside some more 
money in the Heroes Act to go specifically to Black and women-
owned and minority-owned businesses.
    But to me, that seems to me--one of the big arguments 
against relying on economy-wide initiatives to actually attack 
the inequities, because there are these fundamental 
disadvantages that many people in the country largely--and 
most--many of them are Black--face in trying to even deal with 
the systems that we set up that might help them if we can--if 
they had access to them.
    One of the things I want to talk about briefly, and I hate 
to get into health care debates because you can talk about it 
forever, but Mr. Roy talked about Medicare for All that was 
transferable and encouraged mobility. And one of the things 
that occurs to me is that employer-based insurance--and we are 
the only country in the world that has that, the only 
industrialized nation that has employer-based insurance--also 
exacerbates the disparities, because you have so many people in 
the category in Black America and poor whites and so forth who 
are working in jobs where there is no coverage through their 
employer, or they are the first ones that are going to be let 
go and lose their coverage, or the coverage is so expensive 
that they get no growth in their wages.
    Now, I would love to see Dr. Harris, Dr. Jones, if--how you 
think about--if you see that as a huge problem, the idea that 
employer-based insurance is a problem with exacerbating 
inequities.
    Dr. Jones. Yes, I--maybe if I can comment first, I would 
just say a couple of things on that.
    I think that right now, as we are going into a recession, 
we are seeing that there is a huge cost to having your 
insurance tied with your employer. There are a lot of people 
who are losing their job, and that is going to provide--that is 
going to create a break in the continuity of their care, and 
their access to health care.
    I also think that the other thing is that when I talk about 
the labor market and workers' bargaining power, a lot of what 
you are seeing in terms of workers not being covered by health 
insurance is related to their inability to have collective 
bargaining, and to command better compensation and benefit 
packages from their employers.
    So in the meantime, I think that increasing the ability for 
people to collectively bargain is going to allow them to have 
higher quality jobs and compensation.
    Chairman Yarmuth. I appreciate that. I apologize, I 
attributed the union comments to Professor Deaton; they were 
yours in your testimony.
    Well, my time is running out. So I just want to close and 
say I think Fed Chair Jay Powell had it best--said it best when 
he acknowledged that those least able to withstand the downturn 
had been affected the most. And the impact of this virus on the 
health and economic security of the American people has been 
brutal, and it has hit Black and Latino families particularly 
hard.
    And we can't move forward with a full recovery without 
addressing the underlying racial inequities in our system. I 
think we do have the fiscal space right now and, I believe, the 
public will to make those systemic and long-overdue changes. We 
have some bold policies that are ready to go, like the Heroes 
Act and the George Floyd Justice and Policing Act that we will 
vote on later this week.
    And if we are going to reunite this country and come out on 
the other side of this crisis as a better nation, Congress must 
ensure that our recovery efforts include proactive policies to 
spur not only an inclusive recovery, but inclusive growth and 
opportunities for all.
    And with that, I will thank the panel once again for your 
time, and your insights, and your expertise. And if there is no 
further business before the Committee, this hearing is 
adjourned.
    [Whereupon, at 4:47 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
</pre></body></html>
